<html>
<title> - AVALANCHES IN NATIONAL PARKS; UINTA RESEARCH AND CURATORIAL CENTER; MOUNT RAINIER NATIONAL PARK; BARATARIA PRESERVE UNIT; AND TO AMEND THE NATIONAL HISTORIC PRESERVATION ACT</title>
<body><pre>[Senate Hearing 108-638]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-638
 
  AVALANCHES IN NATIONAL PARKS; UINTA RESEARCH AND CURATORIAL CENTER; 
MOUNT RAINIER NATIONAL PARK; BARATARIA PRESERVE UNIT; AND TO AMEND THE 
                   NATIONAL HISTORIC PRESERVATION ACT
=======================================================================




                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 931            S. 1678

                           S. 2140           S. 2287

                           S. 2469

                               __________

                              JUNE 8, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources

                             _______


                 U.S. GOVERNMENT PRINTING OFFICE

96-296                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Bennett, Hon. Robert F., U.S. Senator from Utah..................     4
Cantwell, Hon. Maria, U.S. Senator from Washington...............    20
Hamre, David, Avalanche Expert, Alaska Railroad Corporation......    35
Krieger, Karen, Heritage Resource Coordinator, State of Utah 
  Division of Parks and Recreation...............................    33
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............    18
Matthews, Janet Snyder, Associate Director for Cultural 
  Resources, National Park Service, Department of the Interior...     9
Nau, John L., Chairman, Advisory Council on Historic Preservation    26
Stevens, Hon. Ted, U.S. Senator from Alaska......................     2
Talent, Hon. James M., U.S. Senator from Missouri................    25
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Thompson, Tom L., Deputy Chief, National Forest System, USDA 
  Forest Service.................................................     7

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    45
















  AVALANCHES IN NATIONAL PARKS; UINTA RESEARCH AND CURATORIAL CENTER; 
MOUNT RAINIER NATIONAL PARK; BARATARIA PRESERVE UNIT; AND TO AMEND THE 
                   NATIONAL HISTORIC PRESERVATION ACT

                              ----------                              


                         TUESDAY, JUNE 8, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order. Good 
afternoon and welcome to all of you.
    This is kind of an unusual week, but we intend to go ahead 
with our usual process here. I want to welcome the 
representatives from the Department of the Interior and 
Agriculture and other witnesses to the National Parks 
Subcommittee hearing.
    Our purpose is to hear testimony on five bills: S. 931, the 
bill to direct the Secretary of the Interior to undertake a 
program to reduce the risk from and mitigate the effects of 
avalanches on visitors in units of the National Park System and 
other recreational users of public lands; S. 1678, a bill to 
provide for the establishment of the Uinta Research and 
Cultural Center for Dinosaur National Monument in the States of 
Colorado and Utah, and for other purposes; S. 2140, a bill to 
expand the boundaries of the Mount Rainier National Park; S. 
2287, a bill to adjust the boundaries of Barataria Preserve 
unit of the Jean Lafitte National Historical Park, and to 
change the name if we can, in the State of Louisiana, and other 
purposes; S. 2469, a bill to amend the National Historic 
Preservation Act to provide appropriation authorization and 
improvement for the Advisory Council on Historic Preservation.
    So I want to thank the witnesses and we look forward to 
your testimony and the opportunity to deal with these five 
bills. Let me turn to my friend from Hawaii.
    Senator.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing.
    I have briefly reviewed the bills on today's agenda and 
they seem to be for the most part noncontroversial. Earlier 
this Congress the Senate passed a bill that I introduced to 
provide for a national policy to protect the fossils and other 
prehistoric resources on Federal lands. I am interested to 
learn more about this curatorial center that Senator Bennett's 
bill would authorize outside of the Dinosaur National Park.
    I also want to hear the testimony of my friend Senator 
Stevens on avalanches. It is something that Hawaii does not 
have, for now anyway, but we certainly want to help our friend 
from Alaska on that.
    All of the other bills are sponsored or co-sponsored by 
members of this committee and I look forward to helping in 
their efforts to move those bills through.
    Mr. Chairman, I would like to welcome the witnesses to the 
subcommittee this afternoon and look forward to hearing more 
about each of these bills. Thank you.
    Senator Thomas. Thank you very much.
    We are pleased to have Senator Stevens here from Alaska. 
Senator, do you care to go ahead?

          STATEMENT OF HON. TED STEVENS, U.S. SENATOR 
                          FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman and 
Senator Akaka. I appreciate your taking the time, particularly 
during this period, to carry out this hearing on these bills.
    I appear with regard to S. 931. Across avalanche-afflicted 
States, government agencies such as the Department of 
Transportation, private organizations, and mining companies 
spend large sums each year on avalanche mitigation. Depending 
on the severity, the season cost per State may range from $3 to 
$10 million annually. While such damage can bring hardships to 
many local communities, none can compare with the loss of a 
friend or family member.
    The majority of avalanche fatalities are the result of 
recreational activities in unmitigated avalanche areas. In 2002 
to 2003, 58 people lost their lives in avalanches across North 
America. 23 of these individuals were caught in slides while 
snowmobiling, a common and necessary activity in my home State 
of Alaska. In April, Richard Staley, captain of the Fairbanks 
Ice Dogs hockey team, was killed when his snow machine caused 
an avalanche that left a debris pile 150 feet long and 13 feet 
deep.
    We can help avoid such tragedies by assisting in minimizing 
the accessibility of accurate forecasts--by maximizing the 
accessibility of accurate forecasts and providing increased 
grant opportunities for research.
    This bill directs the Secretary of the Interior, in 
coordination with the Secretary of Agriculture, to establish an 
avalanche protection program which will provide early 
identification of the potential for avalanches and mitigate the 
effects of avalanches on visitors, recreation users, 
transportation corridors, and neighboring communities. In this 
effort, the program will maximize the resources of the National 
Avalanche Center of the Forest Service and establish an 
advisory committee to assist in the development and 
implementation of the program.
    I would ask that my full statement appear in the record, 
Senators, and I would just tell you this. My home is in 
Girdwood, Alaska, which is 38 miles south of Anchorage. I am 
awakened when I am home by the sound of artillery, and that is 
artillery shells that are being fired at the mountain to try to 
dislodge the overhangs that develop when intensive winds push 
snow and ice to the point where those peaks can, as they start 
to melt, they can cause avalanches.
    We do our best to avoid avalanches, but it is a difficult 
thing to do. We need better assistance from the governments 
where we can have the sharing of information that this bill 
would bring about. So I would urge that you give it early 
consideration and I look forward to working with you in that 
regard. If you have any questions I will be glad to answer 
them.
    By the way, in some areas those artillery pieces were 
recently called back because those pieces were needed in the 
current engagements in Afghanistan and Iraq. So those 
communities are somewhat in danger now.
    Senator Akaka, you just have to think of this. We share 
volcanoes with you, but these avalanches are just as bad as 
volcanoes when they start causing enormous snow slides coming 
down those mountains.
    [The prepared statement of Senator Stevens follows:]
   Prepared Statement of Hon. Ted Stevens, U.S. Senator From Alaska, 
                               on S. 931
    Across avalanche-afflicted States, government agencies such as the 
Department of Transportation, private organizations and mining 
companies spend large sums each year on avalanche mitigation. Depending 
on the severity of the season costs per State may range from $3 to $10 
million annually.
    While such damage can bring hardships to many local communities, 
none can compare with the loss of a friend or family member. A majority 
of avalanche fatalities are a result of recreational activities in 
unmitigated avalanche areas. In 2002-2003, 58 people lost their live 
sin avalanches across North America--23 of these individuals were 
caught in slides while snowmobiling. A common and necessary activity in 
my home State of Alaska. In April, Richard Staley, Captain of the 
Fairbanks Ice Dogs hockey team was killed when his Snowmachine caused 
an avalanche that left a debris pile 150 feet long and 13 feet deep. We 
can help avoid such tragedy by assisting in maximizing the 
accessibility of accurate forecasts, and providing increased grant 
opportunities for research.
    S. 931 directs the Secretary of the Interior, in coordination with 
the Secretary of Agriculture, to establish an avalanche protection 
program which will provide early identification of the potential for 
avalanches and mitigate the effects of avalanches on visitors, 
recreational users, transportation corridors and neighboring 
communities. In this effort the program will maximize the resources of 
the National Avalanche Center of the Forest Service and establish an 
advisory committee to assist in the development and implementation of 
the program. This advisory committee will be comprised of 11 members 
from Federal land management agencies, concessionaires or permittees, 
State Departments of Transportation and individuals from Federal or 
State-owned railroads, such involvement will ensure the vital 
cooperation between the Federal Government and local communities that 
is necessary in successfully mitigating the potentially devastating 
effects of avalanches.
    Avalanche mitigation cannot be based solely on forecasts and 
research. Many communities require specific means, including hard to 
come by artillery, to remove avalanche hazards posing an increased risk 
of damage--these tools are a vital part of the avalanche mitigation 
effort. Just last month, the U.S. military notified two resorts that 
five 119-A Howitzers must be returned for use in the war in Iraq. This 
artillery was on loan to the Sierra-Nevada ski resorts of Alpine 
Meadows and Mammoth Mountain, which were using them to knock down loose 
snowpack threatening the two resorts. Artillery is an effective and 
valuable safety tool. S. 931 directs the Secretaries to work with the 
Secretary of the Army to establish a central depository for artillery 
and ammunition for avalanche control. This provision opens an avenue 
for those Federal and non-Federal entities to seek valuable resources 
that are not currently readily accessible. In maintaining essential 
transportation and communication corridors and minimizing the tragic 
accidents that occur every year, it is imperative that we assist, to 
the greatest extent possible, in the prevention and forecasting of 
avalanches. This bill brings those resources to the entities tat need 
them the most, enabling us to significantly reduce the effects of 
avalanches on visitors, recreational users, transportation corridors, 
and our local communities.

    Senator Thomas. Thank you very much, Senator. Your full 
statement will be in the record.
    Senator Stevens. Thank you.
    Senator Thomas. Do you have any questions?
    Senator Akaka. No.
    Senator Thomas. You do not have snow problems?
    Senator Akaka. No. We have got to prepare for that.
    Senator Thomas. I see.
    Thank you very much, Senator.
    Senator Stevens. Thank you.
    Senator Thomas. We will certainly look forward to working 
on your bill.
    Senator Stevens. Thank you very much.
    Senator Thomas. Senator Bennett, I see that you are here, 
sir. Thank you for being here, Senator. Please go right ahead.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you. I am here to testify in behalf of 
S. 1678. It is the Uinta Research and Curatorial Center Act, 
which I introduced late last year. The bill would authorize the 
Park Service to construct a research and curatorial facility 
for the Dinosaur National Monument and its partner, the Utah 
Field House of Natural History Museum. That is a Utah State 
park unit that is located in Vernal, Utah.
    Now, since the first discovery of Jurassic era bones in the 
area in the early 1900's, the Dinosaur National Monument has 
been a tremendous tourist attraction and haven for both amateur 
and expert dinosaur enthusiasts and has produced over 600,000 
items that are now in its museum collection. Unfortunately, 
these items are currently stored in 17 different facilities 
throughout the park. I have visited the park and seen the 
condition of this storage and it runs the whole range of 
suitability, but unfortunately it is usually at the bottom end 
of the range of suitability for the storage of these artifacts.
    Many of the resources are at risk because of the failure of 
the scattered facilities to meet National Park Service 
standards at the minimum. So they are below existing minimum 
standards or, as we might say in the building trades, they do 
not meet code. But they are stored nonetheless because we have 
to keep them somewhere.
    A new research and curatorial facility is greatly needed to 
bring the park's collections up to standard, to meet code, if 
you will, and ensure its protection. Otherwise we run the risk 
that these resources will be permanently damaged and some of 
them may even be lost forever.
    So I believe this legislation represents a model of how the 
Federal Government can meet these challenges by utilizing its 
relationships with State and local governments. This will not 
be a purely Federal activity. By sharing facilities as proposed 
by my bill, taxpayer dollars can be saved and the mission of 
the Park Service to preserve these resources for future 
generations can be met.
    So the State has stepped forward and built, at a cost of 
$6.5 million, a newly completed and now dedicated State museum, 
with the proposed Federal facility co-located at the State 
museum, on the same piece of real estate. The National Park 
Service staff, visiting scholars, interns, volunteers would 
have access to the State's museum space for exhibits, 
classrooms, conferencing, education, and of course public 
services such as restrooms, parking, and the other things, that 
would not require any Federal investment. That portion of the 
infrastructure is already there. The Federal project that my 
bill would authorize would be built immediately adjacent to it 
and connecting with it.
    Now, Vernal City and Uintah County have stepped forward 
with their support, because they are providing the land, valued 
at approximately $1.5 million, to be donated to the Park 
Service for the construction of the proposed facility. In other 
words, the Federal money would go entirely into bricks and 
mortar and not into acquiring any land, that having been 
provided by the city and county.
    Because of the significant local commitment, enthusiasm in 
the community is very high. A few weeks ago at the dedication 
of the state museum, approximately half of the county's 26,000 
residents were in attendance. Those of you who come from rural 
areas know how difficult this can be, to get that many people 
in one place at one time, and that demonstrated the amount of 
local support.
    I have a stack of letters of support from both the city and 
the county and I would ask consent that they be included in the 
record following my statement.
    Senator Thomas. They shall be included.
    Senator Bennett. Now, there is an additional partner, 
private partner, in this project along with the State, the 
county, and the city, the Intermountain Natural History 
Association. They have agreed to fund and carry out the soil 
and environmental testing necessary to permit the Park Service 
to accept this donation. Other Federal agencies, such as the 
BLM and the Forest Service, who are also in need of collection 
storage have become minor partners and would be able to take 
advantage of this storage facility.
    So, Mr. Chairman, I believe it's imperative that we care 
for the paleontological resources and ensure their availability 
to further generations both for scientific study as well as the 
enjoyment of the public. This legislation is a proactive 
approach to accomplishing those objectives. I think it is an 
excellent example of a cost-effective partnership between the 
Park Service, the State of Utah, the city of Vernal, Uintah 
County, and private organizations. It is the kind of 
cooperative activity I think the Congress ought to applaud and 
support.
    I thank you for the opportunity of appearing before you 
today.
    [The prepared statement of Senator Bennett follows:]
   Prepared Statement of Robert F. Bennett, U.S. Senator From Utah, 
                               on S. 1678
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today regarding S. 1678, the Uintah 
Research and Curatorial Center Act, which I introduced late last year.
    The bill would authorize the National Park Service (NPS) to 
construct a research and curatorial facility for Dinosaur National 
Monument and its partner, the Utah Field House of Natural History 
Museum, in Vernal, Utah. The facility would be co-located with the 
Museum while helping to preserve, protect, and exhibit the vast 
treasures of one of the most productive sites of dinosaur bones in the 
world.
    Since the first discovery of Jurassic era bones by the 
paleontologist Earl Douglass in 1909, and the subsequent proclamation 
as a national monument in 1915 by President Woodrow Wilson, the 
Dinosaur National Monument has been a haven for both amateur and expert 
dinosaur enthusiasts. At present, Dinosaur National Monument has more 
that 600,000 items in its museum collection. Unfortunately, these items 
are currently stored in 17 different facilities throughout the park. 
Many of these resources are at risk due to the failure of the scattered 
facilities to meet minimum National Park Service storage standards. A 
new research and curatorial facility is greatly needed to bring the 
park's collection up to standard and to ensure its protection.
    The curatorial facility will also fill a critical role as a 
collection center for the park and partners' fossil, archaeological, 
natural resource operations and collections, and park archives. 
Moreover, in these days of limited budgets, the decision to co-locate 
this facility with the state's museum will also save taxpayer dollars. 
The state of Utah has just completed and dedicated its new Field House 
Museum at a cost to the state of $6.5 million dollars. Because of the 
co-location, NPS staff, visiting scholars, interns and volunteers would 
have access to the state museum's space for exhibit, classroom, 
conferencing, education, restrooms, public access, parking, and other 
needs not included in the curatorial facility.
    The 22,500 square foot facility will be built outside the 
boundaries of the park on land donated to the Park Service by the City 
of Vernal and Uintah County. The legislation will also permit the Park 
Service to accept the donation of the land, valued at approximately 
$1.5 million dollars.
    Other federal agencies, such as the Bureau of Land Management and 
the Forest Service, who are also in need of collections storage, have 
become minor partners and would utilize a small portion of the storage 
facility. An additional partner in the project, the Intermountain 
Natural History Association, has agreed to fund and carry out the soil 
and environmental testing necessary to permit the Park Service to 
accept the donation.
    Mr. Chairman, it is imperative that we care for these 
paleontological resources and ensure their availability to future 
generations, both for scientific study and the enjoyment of the public. 
This legislation is a proactive approach to accomplishing those 
objectives and is an excellent example of a cost effective partnership 
between the National Park Service, the State of Utah Department of 
Natural Resources, the City of Vernal, and Uintah County of which this 
Congress ought to applaud and support.
    Again, thank you for the opportunity to address the subcommittee.

    Senator Thomas. All right, sir. Thank you very much, 
Senator.
    Any questions?
    Senator Akaka. No.
    Senator Thomas. No questions. All right, sir. Thank you. We 
appreciate your being here.
    Senator Bennett. Thank you.
    Senator Thomas. We will be prepared now for panel one: Mr. 
Tommy L. Thompson, Tom Thompson, Deputy Chief, National Forest 
Service, USDA; and Ms. Janet Snyder Matthews, Associate 
Director, Cultural Resources, National Park Service, Department 
of the Interior.
    We thank you both for being here. We look forward to your 
testimony and your insight into these bills. According to the 
way they are listed, we will start with Mr. Thompson if that is 
all right.

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                  SYSTEM, USDA FOREST SERVICE

    Mr. Thompson. Thank you, Mr. Chairman. I want to thank you 
for the opportunity to appear before this committee to present 
the views of the administration on S. 931, the Federal Lands 
Recreational Visitor Protection Act of 2003. It is a bill that 
would establish a program to reduce the risks from and mitigate 
the effects of avalanches on recreation users and of visitors 
to public lands.
    The U.S. Forest Service supports the concepts contained in 
this bill. However, we cannot support S. 931 unless amended to 
delete the formation of a grants program and to designate the 
Secretary of Agriculture as the lead for this bill. At a time 
when we are trying to reduce backlogs and maintain National 
Forest System lands, we cannot afford to take on new funding 
responsibilities under the grants program.
    We support a coordinated and improved avalanche protection 
program on public lands. Visitors to public lands that are 
threatened by avalanches fall roughly into three categories: 
those folks who are driving on mountain highways, people 
visiting developed sites like ski areas, and people who are 
going in the back country to either crosscountry ski or 
snowmobile.
    Much of the back country and developed winter recreation 
that takes place in avalanche terrain occurs on national 
forests. Over the past 50 years, the vast majority of avalanche 
fatalities have occurred on National Forest System land. The 
Forest Service plays an important role in avalanche 
coordination and safety and the expertise that the agency can 
bring to developing an avalanche program as envisioned in this 
legislation is significant.
    The Forest Service, working with the National Park Service, 
has a long history of addressing avalanche protection on all 
Federal lands. The Forest Service began permitting ski areas on 
national forests in the 1930's and soon recognized that 
avalanches threaten skiers' safety both traveling to and within 
permitted ski areas.
    To reduce the threat, the Forest Service established the 
Snow Ranger program in 1938 to provide Forest Service winter 
sports personnel with rigorous snow science expertise, 
avalanche forecasting, and training in the use of explosives 
for avalanche control. Since the 1950's the Forest Service has 
played a significant role in furthering research on avalanches.
    To further public safety, the Forest Service established 
the National Avalanche Center in the early 1990's. The National 
Avalanche Center manages the military artillery program for 
avalanche control, coordinates a network of back country 
avalanche education advisory centers, transfers state-of-the-
art avalanche technology to advisory centers, facilitates 
avalanche research, and develops and distributes avalanche 
safety products. There are 17 avalanche back country centers 
located in various locations in Alaska, Washington, California, 
Colorado, Utah, Idaho, Montana, Wyoming, and New Hampshire.
    The Forest Service manages 16 of these centers and the 
State of Colorado manages one of them. Many of these centers 
operate through voluntary efforts and donations. The Forest 
Service typically provides about 50 percent of the operating 
funds for each of these centers and community friends 
organizations and other agencies typically provide the other 50 
percent.
    In light of these past and ongoing efforts that the Forest 
Service has contributed toward avalanche awareness and 
protection, we recommend that the bill designate the Secretary 
of Agriculture to lead the establishment of a coordinated 
avalanche program in cooperation with the Secretary of the 
Interior.
    In addition, we recommend that the formation of a new 
grants program under section 3(e) be deleted from the bill. The 
Departments of Agriculture and Interior must focus existing 
funding on effectively managing Federal lands, including 
avalanche awareness and protection. Creating a new 
responsibility to fund grants could divert available funds away 
from these operational needs.
    S. 931 establishes a central depository for ordnance that 
is used for avalanche control. A central depository is 
important because all the military artillery assets appropriate 
for avalanche control could be stored in a single location and 
could be better managed, including assuring optimum climatic 
storage conditions.
    At the same time, we must be aware of the need to look for 
alternatives to this military ordinance. It is estimated that 
there is a 10 to 15-year supply of usable assets remaining in 
the United States and the technology exists to develop a system 
that could replace and outperform the military artillery.
    We appreciate the efforts that the committee is extending 
to reduce the risk of avalanche hazards to the public. I want 
to thank you for this opportunity to share our views on S. 931 
and would be happy to answer any questions that you may have.
    [The prepared statement of Mr. Thompson follows:]
 Prepared Statement of Tom L. Thompson, Deputy Chief, National Forest 
                 System, USDA Forest Service, on S. 931
    Mr. Chairman, I want to thank you for the opportunity to appear 
before this committee to present the views of the administration on S. 
931, Federal Lands Recreational Visitor Protection Act of 2003, a bill 
to establish a program to reduce the risks from and mitigate the 
effects of avalanches on recreational users of and other visitors to 
public lands. The USDA Forest Service supports the concepts contained 
in this bill. However, we cannot support S. 931 unless amended to (1) 
delete the formation of a grants program and (2) designate the 
Secretary of Agriculture as the lead for this bill. At a time when we 
are trying to reduce backlogs and maintain National Forest System 
lands, we cannot afford to take on the new funding responsibilities 
under this grants program.
    S. 931 describes several goals that would be favorable to the 
public. These include improved program coordination and development to 
reduce the risk of avalanche to visitors of public lands, the creation 
of an advisory committee to assist in development and implementation of 
an avalanche protection program, and the establishment of a central 
depository for ordnance used for avalanche control purposes. We support 
a coordinated and improved avalanche protection program on public 
lands.
    Visitors to public lands that are threatened by avalanches fall 
roughly into three categories: people driving on mountain highways; 
people visiting developed sites like ski areas; and people going into 
the backcountry to cross country ski or ride a snowmobile. Much of the 
backcountry and developed winter recreation that takes place in 
avalanche terrain occurs on National Forests. Over the past 50 years, 
the vast majority of avalanche fatalities have occurred on National 
Forest System lands.
    The Forest Service plays an important role in avalanche 
coordination and safety, and the expertise that the agency can bring to 
developing an avalanche program as envisioned in this legislation is 
significant. The Forest Service, working with the National Park 
Service, has a long history of addressing avalanche protection on all 
federal land. The Forest Service began permitting ski areas on the 
National Forests in the 1930's and soon recognized that avalanches 
threatened skiers' safety both traveling to and within permitted ski 
areas. To reduce the threat, the Forest Service established the Snow 
Ranger Program in 1938 to provide Forest Service winter sports 
personnel with rigorous snow science expertise, avalanche forecasting, 
and training in the use of explosives for avalanche control. Since the 
1950's, the Forest Service has played a significant role in furthering 
research on avalanches.
    To further public safety, the Forest Service established the 
National Avalanche Center in the early 1990s. The National Avalanche 
Center manages the military artillery program for avalanche control, 
coordinates a network of backcountry avalanche education and advisory 
centers, transfers state of the art avalanche technology to the 
advisory centers, facilitates avalanche research, and develops and 
distributes avalanche safety products. There are 17 avalanche 
backcountry centers located in various locations in Alaska, Washington, 
California, Colorado, Utah, Idaho, Montana, Wyoming, and New Hampshire. 
The Forest Service manages 16 of the centers and the State of Colorado 
manages one. Many of these centers operate through volunteer efforts 
and donations. The Forest Service typically provides about 50% of the 
operating funds for each of their centers and community ``friends'' 
organizations, and other agencies typically provide the other 50%.
    In light of these past and ongoing efforts that the Forest Service 
has contributed towards avalanche awareness and protection, we 
recommend that the bill designate the Secretary of Agriculture to lead 
the establishment of a coordinated avalanche program in cooperation 
with the Secretary of the Interior. In addition, we recommend that the 
formation of a new grants program under section 3(e) be deleted from 
the bill. The Departments of Agriculture and the Interior must focus 
existing funding on effectively managing Federal lands, including 
avalanche awareness and protection. Creating a new responsibility to 
fund grants could divert available funds away from these operational 
needs.
    S. 931 establishes a Central Depository for ordnance that is used 
for avalanche control. A Central Depository is important because all of 
the military artillery assets appropriate for avalanche control could 
be stored in a single location and could be better managed including 
assuring optimal climatic storage conditions. At the same time, we must 
be aware of the need to look for alternatives to military ordnance. It 
is estimated that there is a 10 to 15 year supply of usable assets 
remaining in the United States. The technology exists to develop a 
system that could replace and outperform military artillery.
    We appreciate the efforts that the committee is extending to reduce 
the risk of avalanche hazards to the public. Thank you, for the 
opportunity to share our views on S. 931. I will be happy to answer any 
questions you may have.

    Senator Thomas. Thank you very much. You did not wish to 
comment on the other bills that are before us? You do not wish 
to comment on the other bills before us?
    Mr. Thompson. Not today.
    Senator Thomas. Ms. Matthews.

  STATEMENT OF JANET SNYDER MATTHEWS, ASSOCIATE DIRECTOR FOR 
 CULTURAL RESOURCES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Matthews. Mr. Chairman, thank you for inviting the 
Department of the Interior to present comments on the five 
bills before your subcommittee today. In the interest of time, 
may I briefly summarize our position on each bill and submit 
full testimonies for the record?
    Senator Thomas. Thank you.
    Ms. Matthews. First, S. 931 would direct a coordinated 
avalanche protection program, as you have heard. The Department 
supports the concepts, however cannot support the bill unless 
amended to delete the formation of a new grants program; 
second, designate the Secretary of Agriculture as the lead for 
the bill. At a time when we are trying to reduce backlogs to 
maintain lands for which we currently hold responsibility, we 
cannot afford to take on new funding responsibilities under 
this grants program.
    Second, S. 1678 would establish a research and curatorial 
center and interpret the resources of Dinosaur National 
Monument collections in accordance with National Park System 
museum standards. The Department of the Interior supports this 
bill with a technical amendment to accurately reflect the 
correct spelling of the name of the center, ``Uinta,'' the 
project partners choosing that spelling in conjunction with the 
mountains themselves rather than the county. We also submit a 
current map detailing the location for the center, on the site 
relative to the partners' structures on the site.
    With regard to S. 2140, that would expand the boundaries of 
Mount Rainier National Park, the Department supports enactment, 
but would like to work with the committee on an amendment 
described later in this statement. This legislation would 
enable acquisition of a new campground site and other 
facilities to replace the Carbon River campground that exists 
but is frequently inaccessible due to flooding. This proposal 
is consistent with the administration's priority to reduce the 
deferred maintenance backlog, make parks more accessible, and 
implement the only boundary expansion in Rainier's general 
management plan adopted in 2002.
    With regard to S. 2287, it would adjust the boundary of the 
Barataria Preserve Unit of the Jean Lafitte National Historic 
Park and Preserve in Louisiana. The Department supports the 
bill with amendments included in this testimony. The bill would 
authorize the Secretary of the Interior to acquire more than 
3,900 acres by transferring existing federally owned lands to 
the park system, which would expand the authorized acreage of 
the preserve from 20,000 acres to approximately 23,000 acres.
    The bill would also make clarifying amendments to title 9 
of the National Parks and Recreation Act of 1978, the 
legislation that established the park.
    With regard to S. 2469, which would provide appropriation 
authorization and aims to improve the operations of the 
Advisory Council on Historic Preservation, the Department 
supports this bill, but, with the understanding that certain 
provisions will be amended to incorporate changes proposed by 
the Department and the Advisory Council in testimony.
    The National Historic Preservation Act of 1966, a post-
World War II coming-of-age of middle class representation in 
Congress, created the Advisory Council as a key actor in the 
Federal historic preservation partnership program. The council 
is the principal advisor to Federal agencies as well as to 
State and tribal governments on many aspects of public policy.
    The 20-member council includes Federal agencies, State and 
local government officials, private citizens, and qualified 
professional experts in the fields within historic 
preservation. It advocates full consideration of historic 
places in Federal decision-making and oversees section 106 of 
the Act.
    S. 2469 proposes: One, additional membership to this 
sitting council, a designee option for the Governor member, and 
amends the existing quorum requirement. The Department supports 
these proposals.
    Two, improves the council's financial and administrative 
services, a proposal also supported by the Department.
    Three, authorizes the council not only to obtain or receive 
property, facilities and services, but also to solicit such 
from Federal or non-Federal entities.
    Four, would strike the council's current annual 
appropriation authorization, authorizing such amounts as may be 
necessary to carry out this title, a provision that supports 
the President's 2005 budget.
    S. 2469 last proposes a new section 216 to the 1966 Act, 
increasing authority to work with Federal grant-making agencies 
to improve effectiveness in meeting the purposes and policies 
of the Act. Section 216(a) as drafted would specifically confer 
on the council the authority to modify grant selection 
criteria, to administer jointly grant or assistance programs, 
with the proviso that it would not be inconsistent with the 
statutory authority of the program.
    This section mirrors a provision in the House companion 
bill, H.R. 3223, introduced last year in October. At that point 
the Department worked closely with the council to draft 
amendments. These amendments, which we support, are attached to 
our testimony and included in the testimony of John Nau, the 
chairman of the Advisory Council. Were the committee, the 
subcommittee, to amend S. 2469 to reflect those amendments, the 
Department could fully support this bill. The Department is 
concerned that section 216(b) is duplicative of the provisions 
in section 202 of the 1966 Act.
    Mr. Chairman, this concludes my prepared remarks. I would 
be pleased to answer any questions you or members of the 
committee have on this or the other four bills.
    [The prepared statements of Ms. Matthews follow:]
  Prepared Statement of Janet Snyder Matthews, Associate Director for 
 Cultural Resources, National Park Service, Department of the Interior
                               on s. 931
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 931, 
a bill that would direct the Secretary of the Interior to establish a 
coordinated avalanche protection program that would provide early 
identification of the potential for avalanches, and reduce the risks 
and mitigate the effects of avalanches on visitors, recreational users, 
neighboring communities, and transportation corridors.
    The Department supports the concepts contained in S. 931. However, 
the Department cannot support the bill unless amended to (1) delete the 
formation of a new grants program, and (2) designate the Secretary of 
Agriculture as the lead for this bill. At a time when we are trying to 
reduce backlogs and maintain what we already own, we cannot afford to 
take on the new funding responsibilities under this grants program.
    The history of avalanches influencing visitor safety on public 
lands is significant and well-documented. Three hundred and ninety-two 
people have perished in avalanches on public lands in the past twenty 
years and as winter sport activities continue to rise, so will 
avalanche incidents. Avalanche fatalities on National Park Service 
(NPS) managed lands account for about six percent, whereas avalanche 
fatalities on National Forest lands account for about ninety percent of 
the total. Avalanches kill more people on public lands than any other 
natural event.
    The National Park Service and United States Forest Service have 
actively managed a coordinated aggressive avalanche protection program 
since the late 1930's. Although the National Park Service provides 
limited funding and extensive data collection to the Forest Service, it 
should be noted that the Forest Service is the lead agency with regard 
to avalanche awareness and mitigation efforts. The Forest Service 
program includes managing the National Avalanche Center in Ketchum, 
Idaho, as well as fifteen regional backcountry avalanche centers. These 
avalanche centers issue avalanche danger advisories for limited and 
specified geographic areas throughout the west, the northeast, and 
Alaska.
    Currently these programs include snow pack and climate analysis, 
provide avalanche awareness information via publications, visitor 
centers, weather radio, and internet sites, teach avalanche awareness 
classes to the public, and develop and provide avalanche control work 
using explosives and passive control devices. It is recognized that 
these centers only exist in and serve a limited number of geographic 
areas, and all have limited resources. However, they continue to 
provide information to millions of recreation users and to other 
government and private agencies.
    The primary avalanche control method includes hand and aerial 
projected explosive charges. However, many areas are using passive 
control measures such as the spreading of charcoal on avalanche prone 
slopes and manually triggered releases. Although the bill prescribes 
the use of artillery, the National Park Service is prohibited from 
using this method in congressionally designated wilderness areas, where 
the majority of avalanche hazard zones exist in the National Park 
System. The artillery systems that are used in NPS areas were not 
designed to trigger avalanches or to be used in very cold environments. 
In 1999, Yellowstone National Park experienced several difficulties 
with unexploded ordnance resulting in risk to park visitors and our 
employees. Military systems other than the ones currently employed have 
been carefully analyzed and none appear to be applicable as avalanche 
control systems.
    To further complicate this issue the U.S. military recently 
requested the return of five howitzers that cooperators were using to 
prevent avalanches, including the one at Yellowstone, to be used for 
active military service. Of the many benefits of the bill, developing 
alternatives to military artillery for avalanche control would be very 
desirable.
    We recognize that there is much room for improvement in avalanche 
management methods, and the Department respectfully urges this 
committee to consider the following suggestions for strengthening S. 
931 and making its implementation more efficient and effective.
    First, we recommend that the bill designate the Secretary of 
Agriculture to lead the establishment of a coordinated avalanche 
program. The U.S. Forest Service has considerable experience in 
avalanche control and data gathering, oversight of National Avalanche 
Centers, and a greater percentage of incidents that warrant the 
designation of the Department of Agriculture as the best department to 
develop and manage the program.
    Secondly, we recommend that the formation of a new grants program 
under section 3(e) be deleted from the bill. The Departments of 
Agriculture and the Interior must focus existing funding on effectively 
managing Federal lands, including avalanche awareness and protection. 
Creating a new responsibility to fund grants could divert available 
funds away from these operational needs.
    We believe that this bill will provide the appropriate Federal 
support for services such as avalanche forecasting, munitions 
management, and public information to ensure visitor protection on 
public lands.
    Mr. Chairman, this concludes my remarks. Thank you for the 
opportunity to provide our perspective. I would be happy to answer any 
questions you may have.
                                 ______
                                 
                               on s. 1678
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1678, a bill to establish the Uintah Research 
and Curatorial Center in the city of Vernal, Utah. We thank Senator 
Bennett and the other members of the Utah delegation for their interest 
and support in protecting the resources of Dinosaur National Monument, 
the site for which the Center is intended.
    The Department of the Interior supports this bill with a technical 
amendment, to accurately reflect the correct spelling of the name of 
the center--Uinta. The partners have chosen to spell the name of the 
center in the same way the Uinta Mountains are spelled and not the 
County of Uintah. We also have a current version of the map that more 
accurately shows the location of the center in its relationship to 
other partner structures on the site.
    S. 1678 would authorize the National Park Service to establish the 
Uinta Research and Curatorial Center on land outside the boundary of 
Dinosaur National Monument. The land would be acquired by donation from 
the city of Vernal, Utah and be no more than five acres. S. 1678 would 
authorize the center to be used for the curation, storage, and research 
of the museum collection of Dinosaur National Monument and provide for 
curation of other collections held by other federal agencies, tribes, 
and universities under the guidelines of cooperative agreements with 
the Secretary. The State of Utah, local agencies, academic 
institutions, and appropriate private nonprofit entities may also enter 
into agreements to manage and use the site. The bill requires that the 
land not become part of the Monument or be subject to laws and 
regulations applicable to the Monument. This language is common when 
Congress has authorized NPS administrative sites in the past.
    Dinosaur National Monument was established on October 9, 1915 to 
protect an extraordinary deposit of dinosaur remains of the Jurassic 
period. While the park contains many other significant resources, the 
centerpiece continues to be the paleontological specimens for which the 
park was originally established. They are considered by the scientific 
community as internationally significant and represent the single best 
window into the life of Jurassic dinosaurs. The collection contains 
type specimens from which specific dinosaurs are named, as well as many 
one-of-a-kind specimens. The collection is heavily used by outside 
researchers as well as the NPS. The collection also contains 
significant archeological, biological, archival, and historic objects 
that preserve the cultural and natural history of the park.
    The 1986 General Management Plan identified a need for a 
collections building and upgraded lab facilities under the preferred 
alternative. In the late 1990's Utah State Parks began planning for the 
construction/reconstruction of the Utah Field House Museum in Vernal. 
The park began working with the State to develop a partnership to 
provide collections space for the state as well as the park. The Field 
House Museum received $5.5 million from the State of Utah for the 
reconstruction, to be co-located with the collections building on 
property acquired by the City of Vernal and Uintah County. The portion 
of the property for the Uinta Research and Curatorial Center is being 
donated to the National Park Service (approximately \1/4\ of the lot, 
estimated value of approximately $375,000).
    The 2001 Collection Management Report identified 609,000 items in 
the collection. The collections are currently stored in 11 different 
facilities throughout the park, including garages, most of which meet 
few NPS museum standards. Maintenance and curation has been deferred 
due to lack of space or proper facility to prepare for storage. Of the 
957 museum standards currently applicable to the park, the park barely 
meets 50% of them.
    This new facility would allow the park to meet nearly 98% of those 
standards. Of particular importance are the health and safety concerns 
from radon gas production in the enclosed areas where radioactive 
specimens are currently stored. Due to lack of space, park staff must 
conduct their duties in the aisles of the old paleo lab at the Quarry 
Visitor Center. This lab, as well as the entire Center, is in serious 
need of rehabilitation, having suffered extensive structural distress 
since its construction in the 1950's. As such, the Quarry Visitor 
provides neither adequate storage space nor a suitable environment for 
staff to work in. The NPS has a project planned to stabilize and 
rehabilitate the historic Quarry Visitor Center in FY 2007 as part of 
the five-year line-item construction program.
    The Uinta Center will provide for approximately 22,500 square feet 
of work and storage space and cost approximately $8.8 million, which 
covers only the construction of the building. Funding for the 
construction is currently programmed for FY 2007. In addition, one-time 
costs for moving the collection, equipping the laboratory, furnishing 
offices, and meeting IT needs are estimated to be approximately 
$400,000. Additional recurring costs for the operation of the center--
either through direct additional NPS funding, or partnerships with 
other agencies that have expressed an interest in using the facility, 
are estimated to be approximately $250,000 to $300,000 per year. This 
includes additional staffing to perform administrative and maintenance 
functions as well as basic operational costs (utilities, necessary 
supplies, materials and equipment).
    A decision was made early in the process not to include the site as 
part of the monument. The site is not contiguous with the present park 
boundary and is nearly fourteen miles from the closest park entrance. 
However, it is in the City of Vernal, Utah and is the site for the 
newly constructed Utah Field House of Natural History Museum. The State 
will be the primary partner with the NPS. The Field House will provide 
visitors and residents access to the museum and programs on the natural 
history of the area, while the Uinta Center will provide the storage 
and research function of a world-class museum. Other partners in the 
project include the City of Vernal, Utah and Uintah County who have 
donated the land for the project. Both communities see this venture as 
an economic benefit and an enhancement to the surrounding region's 
tourism efforts. The Bureau of Land Management (BLM) and the Ashley 
National Forest will also work with us and store their collections 
here.
    The Uinta Research and Curatorial Center is another example of the 
goal of the Department and the National Park Service to meet the needs 
of the agency while working with partners. The Center will provide 
proper storage for irreplaceable artifacts, improve working conditions 
for staff and visiting scientists, partner with the state to provide 
educational opportunities, and give visitors the chance to discover the 
many wonders of eastern Utah.
    That concludes my remarks, Mr. Chairman. I would be happy to 
respond to any questions you and the committee may have.
                                 ______
                                 
                               on s. 2140
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2140, a bill to expand the 
boundary of Mount Rainier National Park.
    The Department of the Interior supports enactment of S. 2140, but 
would like to work with the committee on an amendment, as described 
later in this statement. This legislation would enable the National 
Park Service to acquire a site for a new campground and other 
facilities to replace an existing campground along the Carbon River 
that is frequently inaccessible due to flooding, and it would also 
enhance recreational opportunities and services for visitors in other 
ways. This proposal is consistent with the Administration's priority to 
reduce the National Park System's deferred maintenance backlog and to 
make parks more accessible.
    S. 2140 would authorize the acquisition from willing sellers of up 
to 800 acres of land near the Carbon River entrance to Mount Rainier 
National Park in the northwestern corner of the park. It would 
implement the only recommendation for a boundary expansion contained in 
the park's new General Management Plan, adopted in 2002. The plan 
identifies the addition of these lands as a means to allow the National 
Park Service to replace the Ipsut Creek campground, picnic area, and 
day-use parking for access to the popular Carbon Glacier and Wonderland 
Trail. These facilities, and the two-lane gravel Carbon River Road that 
serves them, are located within or close to the Carbon River 
floodplain. They are flooded on average every seven years, resulting in 
significant road damage. Repairs to the Carbon River Road from a 1996 
flood cost $750,000. The repairs lasted a month before another flood 
damaged the road again. The road now has a facility condition index of 
.56, a ``serious'' rating, worse than ``poor.'' The campground, which 
has a facility condition index of .31, or ``poor,'' has to be closed 
whenever the washouts occur. It is likely that a future flood will 
permanently preclude vehicular access to the campground.
    With the addition of the new lands in the Carbon River Valley above 
the floodplain, the National Park Service could develop a 190-acre 
recreational-administrative hub that would include a replacement 50-
campsite vehicular-accessible campground, picnic sites, and 
administrative and visitor contact facilities. The new facilities would 
include a ranger office and housing, allowing a ranger presence in the 
area that has been missing since the current ranger facilities were 
abandoned due to flooding. Once a major flood event permanently closes 
the Carbon River Road, the road would be converted to a hiking and 
biking trail, and the Ipsut Creek campground would become a backcountry 
campground accessible by foot or bike.
    Acquisition of the nearly 800 acres of land is estimated to cost 
about $3 to $6 million, although no appraisals have been completed. 
Development costs for a new 50-site campground, a picnic area, 
associated roads and parking, a water and septic system, along with 
modifying an existing home and a small maintenance building, are 
estimated to be $4.8 million. Additional operating costs associated 
with the new site would be negligible. Funding for the acquisition and 
line-item construction projects would be addressed through the 
prioritization process used by the National Park Service. A projection 
cannot be made at this time as to when such projects would be of 
sufficient priority to merit their inclusion in the National Park 
Service budget.
    Adding the new area along the Carbon River corridor to the park 
would have other benefits besides facilitating development of new 
camping and administrative facilities in a safer location. It would 
provide additional hiking trails and accessible riverbank fishing, 
protect scenic resources of the road corridor entering the park from 
the west, and contribute to a comprehensive plan for a large corridor 
of diverse outdoor recreation opportunities on public lands along State 
Route 165. It would also provide protection for natural resources, 
including habitat for the marbled murrelet, northern spotted owl, bull 
trout, and salmon, which are all listed or proposed for listing as 
threatened or endangered species. The new boundary would better reflect 
the natural ecosystems and processes needed to maintain the health of 
the park, which has been impacted by logging along its borders, 
urbanization, and population growth since 1899, when the original 
boundary for Mount Rainier National Park was established.
    Lying in between the existing boundary of the park and the area 
proposed for addition to the park is a mile-long corridor of land that 
is part of the Mt. Baker-Snoqualmie National Forest. Section 4 of S. 
2140 would require the Secretary of Agriculture to manage that land to 
maintain the area's natural setting in a manner consistent with the 
area's designation as part of a late successional reserve. We are in 
discussions with the Department of Agriculture about this provision, 
and the Departments would like to work with the committee on developing 
an amendment that would address management of this area.
    S. 2140 would also allow the Secretary of the Interior to acquire a 
one-acre site in the community of Wilkeson for a permanent visitor 
contact facility, or welcome center. Having welcome centers in the 
Mount Rainier gateway communities, including Wilkeson, is supported by 
the park's General Management Plan as a critical component of the 
park's provision of services to visitors. The National Park Service 
already operates a welcome center in a leased facility in Wilkeson to 
serve visitors headed toward the Carbon River and Mowich areas of the 
park, as well as Mount Baker-Snoqualmie National Forest and state and 
local recreational areas. The Wilkeson center will serve an even more 
critical function if the boundary change proposed by this bill is 
fulfilled and recreational opportunities in the Carbon River corridor 
are expanded. The authority in this bill simply provides the option, if 
the opportunity arises, for the park to own rather than lease a welcome 
center in Wilkeson. The cost of the facility, for which we do not have 
an estimate, would be offset by savings of $26,000 annually that is 
currently spent on the leased site.
    Mr. Chairman, that concludes my prepared statement. I would be 
happy to answer any questions you or the other members of the 
subcommittee have.
                                 ______
                                 
                               on s. 2287
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department of the Interior's views on S. 
2287. This bill would adjust the boundary of the Barataria Preserve 
Unit of the Jean Lafitte National Historical Park and Preserve (Park) 
in Louisiana.
    The Department supports S. 2287 with the amendments included in 
this testimony. This bill would authorize the Secretary of the Interior 
(Secretary) to acquire more than 3,900 acres adjacent to the Barataria 
Preserve (Preserve) unit of the park by transferring existing federally 
owned lands to the National Park Service (NPS), which would expand the 
authorized acreage of the Barataria Preserve from approximately 20,000 
acres, to approximately 23,000 acres. The bill would also make 
clarifying amendments to Title IX of the National Parks and Recreation 
Act of 1978, the legislation that established the park.
    The Jean Lafitte National Historical Park and Preserve was 
established to preserve significant examples of the rich natural and 
cultural resources of Louisiana's Mississippi Delta region. The park 
illustrates the influence of environment and history on the development 
of a unique regional culture. The Barataria Preserve, one of the park's 
six units and currently consisting of approximately 18,400 acres, is 
located in Jefferson Parish, about 10 miles south of New Orleans.
    The boundary expansion proposed by S. 2287 would allow the addition 
of estuarine and freshwater wetlands to the Barataria Preserve's 
boundaries, allowing the boundary to conform to existing waterways and 
levee corridors that mark the interface between developable land and 
estuarine wetlands. The expanded boundary would also include wetlands 
that are part of the Barataria-Terrebonne National Estuary, the most 
biologically productive in North America, which has experienced the 
highest rate of land loss of any of our coastal wetlands.
    S. 2287 would transfer to NPS primarily wetlands already in federal 
ownership, but unavailable for public use at ``Bayou aux Carpes'' and 
``Bayou Segnette'', two of the three study areas that a 1996 NPS 
boundary study found to be appropriate and feasible for inclusion 
within the boundary of the preserve. The study also concluded that 
adding the two areas would enhance interagency management of the upper 
Barataria basin.
    S. 2287 would add all of the Bayou aux Carpes area, consisting of 
approximately 2,905 acres, to the park. Approximately 2,268 acres 
within this area are wetlands acquired by the Justice Department in 
1996 as the result of the settlement of a lawsuit. Currently, the NPS 
has constructive possession of the deeds for these lands but no 
authority to manage them.
    The bill would also add approximately 815 acres of the Bayou 
Segnette area, also referred to as the ``CIT Tract''. The CIT Tract 
consists of wetlands owned by the U.S. Army Corps of Engineers (Corps) 
as the result of a separate lawsuit settled in 1994. The Corps has 
indicated its willingness to transfer management authority for these 
lands to the NPS once the Hurricane Protection Levee is complete and an 
easement is granted to the local levee district along the boundary of 
the tract.
    S. 2287 would also include approximately 821 acres of private 
property, in 10 tracts, within the park boundary which could be 
acquired by the Secretary from willing sellers. The NPS has contacted 
all of the owners of these properties, and none have opposed the 
boundary change. Four of the tracts, totaling approximately 250 acres, 
are extensions of wetland properties already within the present 
boundary. An additional 485-acre tract is entirely jurisdictional 
wetlands with limited access and no potential for development. The 
owners of this property have petitioned members of Congress for 
legislation that includes them within a new boundary. While appraisals 
have not been completed, estimates based on other recently appraised 
wetlands would result in a potential cost of approximately $170,000 for 
all of these wetlands, if they were acquired.
    The remaining five tracts of private property, about 86 acres, are 
not jurisdictional wetlands. The owners of the two largest properties, 
each just under 40 acres, have expressed their interest in being 
included within a new boundary, and a willingness to consider selling 
to the NPS. One of these properties has a single residence upon it, the 
owner of which would be granted lifetime occupancy in the event of 
federal acquisition, in accordance with the legislation that 
established the park. A small swamp tour business is located on the 
other 40-acre property and the owners of both the property and the 
business have expressed their support for inclusion of the property 
within the boundary. The park does not anticipate acquiring these lands 
at this time, and appraisals have not been completed. NPS is also 
unaware of any recent nearby sales that could serve as a comparable. 
However, in the past NPS has paid between $10,000 and $80,000 per acre 
for comparable land within the boundary with the higher figure for lots 
that included utilities, highway, and waterfront access. These lands 
are isolated, accessible only by a dirt road and do not include 
utilities, highway or waterfront access. Although the potential price 
range per acre is large, NPS believes that if these lands were 
appraised the cost per acre would be in the lower end of the range. If 
a figure of $25,000 per acre is used, the cost for these 86 acres could 
potentially be approximately $2.1 million.
    The expanded boundary proposed in S. 2287 would also include a 
State-owned highway right-of-way and State-owned hurricane protection 
levee properties that run along the current boundary. Although these 
properties would remain in State ownership, their inclusion within the 
new boundary would provide opportunities for partnerships between the 
NPS and the State or its subdivisions for law enforcement and boundary 
patrol.
    Managing the additional lands, consisting of boat patrols conducted 
with varying frequency, could have an effect on park operational costs. 
Because the lands would remain undeveloped we estimate that it could 
cost approximately an additional $100,000 to manage them. A more 
accurate budget estimate would depend upon many factors, including the 
ability of the Park to reallocate resources and future plans for the 
addition. The addition of the federal properties would not contribute 
to the maintenance backlog because no facilities would be added and the 
federal lands would be acquired by direct transfer and would not 
involve acquisition costs other than those to process the transfer.
    The NPS has had extensive consultations with local governments and 
taken appropriate steps to increase public awareness on the proposed 
actions in S. 2287. In 1999, both the Jefferson Parish Council and the 
Village of Jean Lafitte adopted resolutions that support the Federal 
land transfers.
    S. 2287 would also amend Title IX of the National Parks and 
Recreation Act of 1978 to make corrections in the name of the park and 
the Barataria unit and amend several provisions that are obsolete or 
need clarification, including removing references to a ``Park 
Protection Zone'' that was never established by local or State 
government.
    We recommend four amendments to S. 2287, which are attached to this 
testimony. The first corrects the map reference in the bill. The second 
clarifies that the lands involved would be transferred to the NPS at no 
cost, the way similar intergovernmental transfers have typically taken 
place in other NPS areas. The third and fourth amendments would ensure 
that the needs of both the local levee district and the Service are 
satisfied with respect to the Hurricane Protection Levee along the 
boundary of the tract.
    Mr. Chairman, that completes my testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
                          Proposed Amendments
             s. 2287, jean lafitte national historical park
    On page 2, line 11, strike ``numbered 467/81000'' and insert 
``numbered 467/80100''.
    On page 3, line 7, insert ``at no cost'' after ``shall be 
transferred''.
    On page 3, line 9, strike ``and''.
    On page 3, line 12, strike the period and insert ``; and'' and 
insert a new subparagraph (iii), as follows:
    ``(iii) the CIT Tract shall be transferred subject to any easements 
that have been agreed to by the Secretary and the Secretary of the 
Army.''.
                                 ______
                                 
                               on s. 2469
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's comments on S. 2469, the National Historic 
Preservation Act Amendments Act of 2004, a bill to provide 
appropriation authorization and to improve the operations of the 
Advisory Council on Historic Preservation. The Department supports S. 
2469, with the understanding that certain provisions will be amended to 
incorporate changes proposed by the Department and the Advisory Council 
in this testimony. We applaud the Advisory Council's efforts to improve 
the effectiveness and efficiency of its operations as it assists our 
citizens in preserving this Nation's important historic places for 
future generations of Americans.
    Almost 40 years ago, the National Historic Preservation Act of 1966 
created the Advisory Council on Historic Preservation as a key actor in 
the Federal historic preservation partnership program. The Council is 
the Nation's principal advisor to Federal agencies as well as to State 
and tribal governments on many aspects of Federal historic preservation 
public policy. The Council is comprised of 20 members, representing 
Federal agencies, private citizens, and experts in the field of 
historic preservation. Its mission is to advocate full consideration of 
historic values in Federal decision-making; to oversee the Section 106 
process that requires Federal agencies to consider the impact of their 
programs and projects on places of historic value; to review Federal 
programs and policies to further preservation efforts; to provide 
training, guidance, and information to the public and Federal entities; 
and to recommend administrative and legislative improvements for 
protecting the nation's heritage.
    S. 2469 proposes amending the Council's statutory authorization in 
five key areas. The first provision would add additional membership to 
the sitting Council, permit a designee for the Governor member, and 
amend the existing quorum requirements. The Department supports these 
proposals as efforts to increase overall Council effectiveness and 
influence. The second provision seeks to improve the Council's 
financial and administrative services, a proposal also supported by the 
Department. The third area authorizes the Council to not only obtain or 
receive property, facilities and services from any Federal or non-
Federal entity, but to also solicit these items, a provision supported 
by the Department. The fourth area of proposed change would strike the 
Council's appropriation authorization of $4 million for each fiscal 
year 1997 through 2005, and to instead authorize such amounts as may be 
necessary to carry out this title, a provision that supports the 
President's 2005 Budget.
    S. 2469 lastly proposes a new section (Section 216) to the National 
Historic Preservation Act by which the Council has increased authority 
to work with Federal grant-making agencies to improve the effectiveness 
of those programs in meeting the purposes and policies of the National 
Historic Preservation Act. The bill proposes this in two ways: 1) by 
authorizing the Council to administer cooperatively and jointly Federal 
agency grant or assistance programs; and, 2) to review and to make 
recommendations to the Federal agency, the President, and the Congress 
on ways to improve these programs or to increase annual funding levels.
    Section 216(a) as drafted would specifically confer on the Council 
the authority to modify grant selection criteria and the authority to 
administer jointly the grant or assistance program with the proviso it 
would not be inconsistent with the statutory authority of the grant 
program. By mandating dual agency administration, the Department is 
concerned that this section would create confusion and increase 
processing and oversight time for many programs that are running 
effectively now.
    This section mirrors a provision in the House companion bill, H.R. 
3223, introduced on October 1, 2003. Last year, the Department worked 
closely with the Council to draft amendments to Section 216(a) to 
address our concerns with the language of the bill. These amendments, 
which we support, are attached to our testimony and are included in the 
testimony of John L. Nau, III, Chairman of the Advisory Council. If the 
subcommittee was to amend S. 2469 to reflect these amendments, then the 
Department could fully support this bill. We would welcome the 
opportunity to work with the Advisory Council and the committee to 
amend S. 2469 to resolve our concerns regarding Section 216(a).
    In addition, the Department is concerned that Section 216(b), which 
would grant the Council the authority to review Federal grant or 
assistance programs and make recommendations, would be duplicative of 
Sections 202(a)(6) and 202(b) of the National Historic Preservation Act 
and thus, is unnecessary.
    The Advisory Council on Historic Preservation is an invaluable 
partner of the Department as we both carry out the national vision that 
created the national historic preservation program more than 30 years 
ago. Throughout that time, the Department and the Council have worked 
effectively and collegially together to enhance historic preservation 
efforts across the nation. The Department looks forward to continuing 
this relationship with the Council as we implement one of the most far-
reaching and important Federal policies on historic preservation in the 
next quarter century.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or members of the committee may 
have.
                                 ______
                                 
                    Proposed amendment to S. 2469, 
             National Historic Preservation Act Amendments
    On page 4, strike line 3 through p. 5, line 16 and insert the 
following:
    ``(g) EFFECTIVENESS OF FEDERAL GRANT AND ASSISTANCE PROGRAMS IN 
MEETING THE PURPOSES AND POLICIES OF THE NATIONAL HISTORIC PRESERVATION 
ACT--Title 11 of the Act is amended by adding at the end the following 
new section:
    `SEC. 216. EFFECTIVENESS OF FEDERAL GRANT AND ASSISTANCE PROGRAMS.
    `(a) COOPERATIVE AGREEMENTS--The Council may enter into a 
cooperative agreement with any Federal agency that administers a grant 
or assistance program for the purpose of improving the effectiveness of 
the administration of such program in meeting the purposes and policies 
of this Act. Such cooperative agreements may include provisions that 
modify the selection criteria for a grant or assistance program to 
further the purposes of this Act or that allow the Council to 
participate in the selection of recipients, if such provisions are not 
inconsistent with the grant or assistance program's statutory 
authorization and purpose.
    `(b) REVIEW OF GRANT AND ASSISTANCE PROGRAMS--The Council may----
    `(1) review the operation of any Federal grant or assistance 
program to evaluate the effectiveness of such program in meeting the 
purposes and policies of this Act;
    `(2) make recommendations to the head of any Federal agency that 
administers such program to further the consistency of the program with 
the purposes and policies of the Act and to improve its effectiveness 
in carrying out those purposes and policies; and
    `(3) make recommendations to the President and the Congress 
regarding the effectiveness of Federal grant and assistance programs in 
meeting the purposes and policies of this Act, including 
recommendations with regard to appropriate funding levels.''.

    Senator Thomas. Thank you very much.
    We have been joined by Senator Landrieu and Senator 
Cantwell. Senator Landrieu, do you have a statement, a comment?

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. I appreciate it. 
I do have a statement I would like to submit for the record.
    Senator Thomas. It will be included.
    Senator Landrieu. But I just have a comment, just to thank 
you, Mr. Chairman, for the support of S. 2287, which expands 
the boundaries of the Jean Lafitte National Park. It has been a 
beautifully developed park in the New Orleans metropolitan 
area. It is quite unique, Mr. Chairman, in that it establishes 
within only 30 minutes of downtown New Orleans just an 
excellent place for millions of visitors to be able to see the 
great expanse of the wetlands that this committee has done so 
much to try to protect.
    So I just came today to thank you, to urge passage of this 
bill, to thank the Department and the administration for their 
support, and to submit some other testimonies from interested 
parties in Louisiana to the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Landrieu follows:]
 Prepared Statement of Mary L. Landrieu, U.S. Senator From Louisiana, 
                               on S. 2287
    I would like to thank the Chairman for scheduling this hearing 
today on a number of items including one that I have introduced, S. 
2287, the Jean Lafitte National Historic Park and Preserve Boundary 
Adjustment Act of 2004. In addition to my statement, I would also like 
to introduce into the record a statement in support of the legislation 
by the Coalition to Restore Coastal Louisiana.
    The Jean Lafitte National Historical Park and Preserve was 
established in 1978 to preserve for present and future generations 
significant examples of the rich natural and cultural resources of 
Louisiana's Mississippi Delta region. The park seeks to illustrate the 
influence of environment and history on the development of a unique 
regional culture. It is named for Jean Lafitte who was a pirate (or 
privateer as he like to be called) that fought alongside U.S. forces in 
the Battle of New Orleans at the end of the War of 1812.
    The park consists of six physically separate sites and a park 
headquarters located in New Orleans. The sites in Lafayette, Thibodaux 
and Eunice interpret the Acadian culture of the area. The Barataria 
Preserve (in Marrero) interprets the natural and cultural history of 
the uplands, swamps and marshlands of the region. Six miles southeast 
of New Orleans is the Chalmette Battlefield and National Cemetery, site 
of the 1815 Battle of New Orleans and the final resting place for 
soldiers from the Civil War, Spanish-American War, World Wars I and II 
and Vietnam. The park's visitor center, which is located in the 
historic French Quarter, interprets the history of New Orleans and 
diverse cultures of Mississippi Delta region.
    It is the Barataria site that is the focus of our attention today. 
The Bill before us would merely adjust the boundary of the Barataria 
preserve unit of Jean Lafitte National Historical Park and Preserve and 
by doing so, protect a crucial component of one of the largest and most 
productive expanses of coastal wetlands in North America--coastal 
Louisiana or as they are known: America's Wetlands.
    The Barataria preserve is the only part of our coastal wetlands 
preserved in the National Park System. As we strive to find ways to 
stem the tide of coastal erosion in Louisiana, and bring about the 
restoration of wetlands already lost, it is equally important that we 
protect those areas that remain such as the Barataria preserve so that 
Americans can experience, first hand, the amazing beauty and fertility 
of Louisiana's bountiful coastal wetlands--the most threatened wetland 
ecosystem in the country--disappearing at a rate of 25 to 35 square 
miles a year.
    Located on the outskirts of New Orleans, where it is accessible not 
only to the people of New Orleans but also to the millions of tourists 
from around the world that visit New Orleans and south Louisiana, 
Barataria serves as an interpretive experience of this greatest of 
coastal wetlands.
    This bill expands this national treasure without any cost to the 
federal government while preserving private property rights. It simply 
transfers to the Park over 3,000 acres of wetlands already in Federal 
ownership, already paid for by the American people. These lands, which 
are adjacent to the Preserve, became Federal as a result of the 
settlement by the Justice Department of two lawsuits brought by the 
landowners against Federal agencies. However, because these acres are 
not managed by the park, they are presently unavailable for public use. 
An Act of Congress is necessary to allow inclusion of these lands into 
a new boundary.
    My bill does just that, opening these lands for canoeing, wildlife 
viewing, exploration, fishing, and hunting, all under the management 
and protection of the park service. The bill grants long-term 
protection to crucial resources that the Park Service has found 
suitable and feasible for inclusion within a new boundary through a 
1996 boundary study.
    The Park is immediately adjacent to the developed areas of the 
Westbank of Jefferson Parish along much of its boundary while the 
Barataria unit in particular Is right next door to a hurricane levee. 
Making more of the park boundary contiguous with the levee that divides 
developed land from undeveloped wetlands enhances opportunities for 
direct cooperation between these communities and the Park for 
management of shared concerns. These concerns include the routing of 
storm-water run-off; the discharge of treated sewage; estuarine water 
quality and its effects on fisheries and recreational uses; wetland 
restoration and mitigation; and a number of other problems and 
opportunities. The Park has worked with Jefferson Parish in seeking 
creative solutions to these problems and will continue to do so. The 
addition of these properties will only enhance their chances for 
success.
    It is for all of these reasons that I am hopeful the Committee will 
approve of this measure in the near future. The expansion we seek in 
this Bill benefits us today as well as tomorrow.

    Senator Thomas. Thank you very much.
    Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I too would like 
to thank you for holding this important hearing, because today 
we will hear testimony on S. 2140, which deals with the 
expansion of the Mount Rainier National Park. I introduced this 
along with Senator Murray, and it is a bipartisan effort, with 
legislation introduced in the House that is almost identical, 
championed by my colleague Representative Jennifer Dunn. That 
legislation has been moving in the House.
    We in Washington are incredibly fortunate to live near such 
a pristine, beautiful public land. Mount Rainier, which anybody 
who has visited the Northwest understands, towers over all 
Washingtonians. The park is really an important part of our 
economy, with over a million visitors from all over the world 
coming on an annual basis.
    However, without this legislation the park and the expense 
of repairs on the park are going to continue to be a challenge. 
That is because the Carbon River keeps washing out the road at 
the northwest corner of the park. This is the access entrance 
where people have a day hike and launch point. But when that 
resource is washed out, as frequently it is because of where it 
actually situates in regard to the Carbon River, we continue to 
pay hundreds of thousands of dollars every time the river 
washes out the camp area and the entrance to the park.
    So to ensure that visitors will continue to have the 
camping and hiking experiences, this bill authorizes a small 
but critical boundary expansion for Mount Rainier National Park 
to allow the National Park Service to acquire 800 acres. And I 
might add that this is 800 acres from willing landowners who 
want to sell their land.
    The bill would allow the National Park Service to rebuild 
the campground in a replacement area on lowland hiking trails 
and would alleviate the need for this consistent repair every 
time the river washes out the campground.
    So I am pleased that the private landowners have supported 
this expansion and I would like to also enter into the record, 
Mr. Chairman, a letter from community and business leaders, 
including city and county government officials, outdoor 
industrial retailers, and other local tourist businesses that 
also support this expansion.
    I would again just like to thank you for this hearing and 
the promise of moving this legislation swiftly through the 
legislative body so that we can actually save the taxpayers 
money in the future from constant repairs that are needed in 
this particular area and continue to give access to just an 
incredible resource that the national park at Mount Rainier is 
today.
    Thank you, Mr. Chairman.
    Senator Thomas. We will have time for a couple of questions 
then. Chief, I guess everyone seems to agree that this ought to 
be in the hands primarily of the Forest Service. You say out of 
17 centers now 16 of them are Forest Service-operated?
    Mr. Thompson. That is true, 16 are managed by the Forest 
Service.
    Senator Thomas. You spend almost half a million then, I 
think, on the program?
    Mr. Thompson. We spend about close to half a million 
dollars, and then cooperators, communities and other agencies 
put up about the same amount of money. So it is about a million 
dollars being invested in those 17 centers right now.
    Senator Thomas. Do you expect there would need to be more 
centers to accomplish your mission?
    Mr. Thompson. It is possible, as we look at the expansion 
into back country use, that there may be the need for more 
centers, and there are some areas that are not covered by 
centers presently. So it is possible. At this time we do not 
have information that would say exactly where those ought to 
be, should be, if there were more.
    Senator Thomas. If this were to change the responsibility 
for implementing the bill, what would that do to the cost to 
the Forest Service?
    Mr. Thompson. It obviously depends upon the grant portion 
of it right now, and if the grant program remained in the bill 
that would add significant costs, depending upon what the 
expansion of that. Without the grant program in the bill, there 
may be some need for extra commitment of resources. Right now 
that 400 to $500,000 from the Forest Service standpoint is 
coming out of our recreation budget, and so that would have to 
be prioritized based upon other needs at this point in time.
    Senator Thomas. I do not think I understand the grant 
thing. If it were grants, what does that mean?
    Mr. Thompson. Well, the grant program as described in the 
bill would give grants to the States or entities to help 
support their costs in carrying out the program. The grant 
would come from the Federal Government.
    Senator Thomas. I see, OK.
    Then, Ms. Matthews, Interior is in agreement with the 
Forest Service as to how this ought to be managed?
    Ms. Matthews. Yes, because the percentage is so much higher 
than what is currently the program of the Forest Service in 
comparison to ours, 6 percent versus 90.
    Senator Thomas. I see. So it would be done in cooperation, 
but the responsibility would lie with the Department of 
Agriculture.
    Ms. Matthews. The lead agency.
    Senator Thomas. Would there be a financial obligation for 
Interior?
    Ms. Matthews. Well, we have existing programs for avalanche 
control within the zones and the areas in Yellowstone, Glacier, 
Yosemite, Mount Rainier, Olympic, North Cascades, and those 
would be continued.
    Senator Thomas. I believe the Uinta research thing suggests 
$8 million or something. But I believe it authorizes ``the 
necessary funding.'' What do you think the funding would be 
here for the Dinosaur National Monument?
    Ms. Matthews. I think our estimate is $8 million, $4.8 
million for the facility itself. That is our estimate, an 
existing home and a small maintenance building, estimated to be 
about $4.8 million. Of course, the public benefit underlined on 
top of the 8O0 acres of land, $3 to $6 million, is immense.
    Senator Thomas. OK. I am always a little concerned when it 
just says ``authorizes the necessary funding,'' because it is 
hard to tell what that would be.
    Mount Rainier adjustment, how much has been the expenditure 
on this road repair and so on; do you know?
    Ms. Matthews. The road repair cost has been about $785,000 
over a period of time; that has been roughly what we have spent 
over a 10-year period for clearing away the debris, the build-
up, the flood waters, and repairing the roadway. Of course, 
getting rid of that expense in the future and constructing 
campsites in an area that will not be subject to flooding will 
be a cost savings ultimately.
    Senator Thomas. This is an expansion of approximately 1,000 
acres?
    Ms. Matthews. Eight hundred acres.
    Senator Thomas. Eight hundred.
    Ms. Matthews. It is for 50 campsites, and I think the other 
visitor facilities are also maximized and added to 
significantly.
    Senator Thomas. Then the cost of the 800 acres, do you have 
a notion what that will be?
    Ms. Matthews. Well, I do.
    Senator Thomas. I guess they talk about there could be 
donations or sales, changes.
    Ms. Matthews. Yes, there could be.
    I am sorry, we will get that to you.
    [The information referred to follows:]

    We estimate that acquiring this land will cost about $3 million to 
$6 million.

    Senator Thomas. Yes, if you do not mind.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Ms. Matthews, I have two questions. One question for you is 
on S. 2469, the bill reauthorizing the Advisory Council on 
Historic Preservation. One of the provisions, and sort of 
repeating the question that was just asked, one of the 
provisions in the bill would give the advisory council the 
authority to solicit contributions and donations. I understand 
from your testimony that the Department supports this 
authority.
    I am not familiar with many Federal agencies that have a 
similar authority to solicit funds or donations. So how does 
this work in the Department of the Interior? Which of your 
agencies or bureaus are authorized to solicit contributions?
    Ms. Matthews. We were discussing that on our way out of the 
main Interior Building and anticipating that answer, and 
actually, Senator, we will have to get back to you on that 
because we have not done a survey of who, if anyone, can 
solicit funds at this point. So I am really not prepared to 
give you an answer, but we will provide it, sir.
    [The information referred to follows:]

    Although several bureaus in the Department of the Interior have 
express authority to ``accept'' gifts, no bureau has express authority 
to ``solicit'' donations. The Department has historically interpreted 
these authorities not to allow solicitation, although we are aware that 
certain other governmental agencies have interpreted acceptance 
authorization in their statutes to include the authority to solicit. 
The Take Pride in America Program is the one program in the Department 
that has an express authorization to solicit. In addition, Congress has 
chartered foundations, including the National Park Foundation and the 
National Fish and Wildlife Foundation, to solicit donations to benefit 
Departmental bureaus, including the National Park Service.

    Senator Akaka. Thank you.
    The other question is on S. 1678, which authorizes the 
curatorial center outside of Dinosaur National Monument in 
Utah.
    Ms. Matthews. Yes, sir.
    Senator Akaka. According to your testimony, the site for 
the new center will be donated and the cost to build the new 
facility will be approximately $8.8 million. Is the proposed 
curatorial center different from the new Utah Natural History 
Museum, or will they share the same building?
    Ms. Matthews. Our responsibility and the testimony you 
heard this morning was that the actual expenditure for the Utah 
Field House of Natural History State Park Museum was $5.5 
million. We had indication that $5.5 million had come from the 
State of Utah. Our part in that is the curatorial facility and 
the curatorial facility cost is--we will submit it. It is part 
of our testimony. We will provide that for you.
    Our approximation is $8.8 million for a 22,500 square foot 
building, the curatorial facility, which incorporates what we 
showed in our record as 11 different storage centers, 
warehouses, and incorporates all that material together under 
acceptable National Park System standards. That ranges from 
everything, everything from climate control to whether it has 
windows or not, earthquake protections depending on what part 
of the country you are in, and whether you need, what you need. 
There are certain standards for that and it would get these up 
to the curatorial standards that we require in optimal 
conditions for other facilities, and provide through the 
partnerships facilities to show how those collections are 
curated. Curation is a big part of the professional standards 
required. They all require certain things. For a public 
facility where it shows the curation, it can be a really 
effective educational standard and really educational exhibit 
for students and others to learn how tedious this work is done 
to preserve these materials for future generations.
    [The information referred to follows:]

    The proposed curatorial center is a separate structure from the new 
Utah Natural History Museum, however they are both located within the 
same site.

    Senator Akaka. Will they be sharing the same building?
    Ms. Matthews. The curatorial facility is not in the same 
building. The Field House of Natural History is a State park, a 
museum that is already constructed and under way. It just 
opened. But all within the same area.
    Senator Akaka. Thank you.
    Senator Thomas. Senator Talent, can you wait? I have one 
more question.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Ms. Matthews, just a process question first. If Senator 
Thomas sought to move the Senate bill or the House bill or we 
moved S. 2140 or the companion bill and we passed that this 
year, would the Park Service put acquisition dollars into next 
year's budget cycle? Is that what would happen?
    Ms. Matthews. For 2006 or beyond.
    Senator Cantwell. I think the committee probably would 
benefit from the historical repairs and improvements and an 
estimation of how often that washout actually occurs. So a 
projection, if you could, of what the expense to the National 
Park Service would be, say in the next 5 to 10 years, if we did 
not improve the road as well, because I think that that is what 
you are trying to get at with your numbers.
    Ms. Matthews. Right.
    Senator Cantwell. I think the last repair was $750,000, but 
I think that there have been some repairs in between there and 
I think that there are more projected for the future. Could you 
provide the committee with some estimates?
    Ms. Matthews. We will provide that, Senator.
    [The information referred to follows:]

    While we cannot predict how much damage will occur to the road 
during the next five to ten years, on the basis of recent weather 
patterns and the erosion of natural barriers between the river and the 
road, we could expect to spend about $175,000 to $230,000 during that 
period if a decision was made to keep the road open to vehicular 
traffic.

    Senator Cantwell. The historical number and some estimates 
for the next, say, 10, 15 years of what we might also be 
expecting.
    Ms. Matthews. Yes. What I have here is that the 1998 flood 
repair by itself cost $750,000.
    Senator Cantwell. Yes. OK, if we could get that, that would 
be great.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Ms. Matthews. Happy to provide that.
    Senator Thomas. Senator Talent.
    Senator Talent. Mr. Chairman, I have no questions for this 
panel.
    Senator Thomas. I just have one more and it has to do with 
the Historic Preservation Act. It indicates the council has had 
about $4 million operating funds with a specific ceiling. Now, 
instead of carrying a specific ceiling, why, they are 
interested in having an authorization for unlimited 
appropriation.
    How do you see this cost change?
    Ms. Matthews. Well, I am not sure that I am really as 
prepared to go into the specifics of that as your second panel 
would be. Mr. Nau has been a great leader in historic 
preservation and has initiated the Preserve America executive 
order and the program to designate communities around the 
country, and I think he is well prepared to discuss that, if I 
may defer to our chairman of the Advisory Council, sir.
    Senator Thomas. All right, we will defer then.
    So thank you very much to you and we will seat the next 
panel and then, Senator, if you have a statement you can just 
go right ahead.
    Mr. John Nau is chairman of the Advisory Council on 
Historic Preservation, from Houston, Texas; Ms. Krieger, 
heritage resource coordinator, State of Utah Division of Parks 
and Recreation; and David Hamre, avalanche expert, Alaska 
Railroad Corporation, Anchorage, Alaska, who flew here.
    Now, Senator, if you would care to go ahead.

        STATEMENT OF HON. JAMES M. TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate that very much, and thank you also for allowing me 
to sit in on your subcommittee. I am not going to repay your 
generosity by reading my entire statement.
    I do want to thank you for holding this hearing so quickly 
on S. 2469, which is legislation to reauthorize and expand the 
Advisory Council on Historic Preservation. In Missouri we are 
well familiar with the council's work and grateful to the 
council for that work because it has been involved with 
restoration of Union Station, rehabilitation and expansion of 
Liberty Memorial in Kansas City, preservation of World War II 
stonework at Fort Leonard Wood, the Market Street redevelopment 
project in St. Louis, and many other historic projects in 
Missouri.
    I am pleased to be sponsoring the reauthorization of the 
advisory council. It would simply reauthorize the agency 
largely as is, Mr. Chairman, with a few changes. One of them 
you mentioned, having a permanent authorization for the 
appropriation level rather than periodic lifting the cap so 
that the appropriation can be as needed, rather than within an 
artificial cap.
    I think we need to do that to accommodate the President's 
request for this year, and generally support what the council 
has been doing, particularly in the area of heritage tourism. I 
really want to recognize Chairman Nau, who is here before the 
subcommittee today, and his work with regard to things like the 
historic courthouse preservation program in Texas, which has 
done a wonderful job of preserving courthouses around the State 
of Texas and linking that to heritage tourism.
    We are very interested in that in Missouri because it is 
such a big tourism State and because we have concerns about how 
we are going to preserve these wonderful buildings which are 
such an important part of our State. Really, one way to do that 
is to link them up to the tourists who are interested in 
looking at the history of Missouri, and the council has been a 
leader in that. Mr. Nau has been a great chairman of the 
council.
    So I have been pleased to sponsor this legislation, 
grateful to you and the ranking member for holding this hearing 
so quickly on it, and looking forward to the testimony of the 
panel. I have a statement to submit for the record, Mr. 
Chairman.
    [The prepared statement of Senator Talent follows:]
  Statement of James M. Talent, U.S. Senator From Missouri, on S. 2469
    Mr. Chairman, Thank you for holding this hearing today and thank 
you for including a bill which I recently introduced S. 2469. This 
legislation will reauthorize and expand the Advisory Council on 
Historic Preservation.
    The Council has been closely involved with historic preservation 
cases in Missouri including the restoration of Union Station and 
rehabilitation and expansion of Liberty Memorial in Kansas City, the 
preservation of World War II stonework at Fort Leonard Wood, the Market 
Street Redevelopment Project in St. Louis and many other historic 
projects in my state. I am grateful for your involvement, interest and 
leadership.
    It is also a pleasure to see my good friend John Nau today. Mr. Nau 
serves as Chairman of the Advisory Council. Thank you, Mr. Nau, for 
coming to Washington to appear before this committee. You have an 
amazing commitment to historic preservation and a vision for the future 
of the agency.
    For example, your historic court houses program in the state of 
Texas is a shining example of how historic preservation should work. 
The program was a great economic stimulus and thanks to your 
leadership, these rural areas will reap the benefits of the program for 
years to come. On a larger scale, your Preserve America program will 
bring together federal state and local governments to stimulate a 
better appreciation for our historic buildings and resources.
    The ACHP plays a pivotal role in the National Historic Preservation 
Program. Founded as a unique partnership among Federal, State, and 
local governments, Indian tribes, and the public to advance the 
preservation of America's heritage while recognizing contemporary 
needs, the program has matured and expanded over time. S. 2469 makes 
some needed changes to the Council to allow for it to continue serving 
the nation.
    S. 2469 would amend the Act to provide the Council appropriation 
authority, expand its membership and improve operations. In 1998, the 
Council's reauthorization provided for $4,000,000 annually through 
2005. S. 2469 omits a specific dollar ceiling, allowing instead for an 
amount necessary to carry out its responsibility. It would also provide 
a permanent appropriation authorization instead of periodic 
reauthorization periods.
    As an independent agency, the Council plays a key role in shaping 
historic preservation policy and programs at the highest levels of the 
Administration. They have the ability to coordinate a national program, 
assisting Federal agencies in meeting their preservation 
responsibilities. The Council also works with States, tribes, local 
governments as well as the private industry.
    I can't stress how important these historic preservation programs 
are thought-out the nation. I am honored to have introduced the 
legislation to allow the good work at the council to continue and 
improve. I look forward to Mr. Nau's testimony today.
    Additionally, both Mr. Nau and the National Park Service have 
included a suggested amendment in their testimony regarding the federal 
grant programs. I am supportive of these clarifying changes to the 
legislation.

    Senator Thomas. Fine. Submit it and it will be included.
    Welcome. Thank you very much for being here. Mr. Nau, would 
you care to begin.

 STATEMENT OF JOHN L. NAU, III, CHAIRMAN, ADVISORY COUNCIL ON 
                     HISTORIC PRESERVATION

    Mr. Nau. Yes, thank you. Good afternoon. Thank you, Mr. 
Chairman, members of the subcommittee, and particularly thank 
you, Senator Talent.
    It is a pleasure to testify before you this afternoon 
regarding the reauthorization proposal for the Advisory Council 
on Historic Preservation. I thank you for this opportunity to 
discuss the vital importance of historic preservation programs 
to our Nation and the essential role that the advisory council 
plays in this effort.
    The National Historic Preservation Act, which created the 
ACHP, is a strong demonstration of the collective wisdom of the 
U.S. Congress in three vital regards: first, the importance of 
preserving America's heritage; second, the necessity of 
building upon the foundation of our past to create a better 
future; third, the strength of linking Federal, State, tribal, 
and local efforts in partnership with the private sector to 
accomplish these goals.
    The ACHP is actively involved in pursuing these goals on 
behalf of the Congress, the President, and, most importantly, 
the American people. It is also actively involved in changing 
itself to better meet the needs through wise stewardship of the 
Federal Government's historic assets that can stimulate 
economic development through activities such as heritage 
tourism.
    The ACHP has focused its energies on reestablishing the 
leadership role that the framers of the 1966 Act envisioned. As 
part of that effort, on March 3, 2003, the President signed 
Executive Order 13287, Preserve America. That same day, Mrs. 
Laura Bush announced the administration's Preserve America 
initiative, which is a government-wide effort to recognize and 
celebrate our joint heritage.
    Since January 15 of this year, we have designated 80 
Preserve America communities across the Nation and have more 
than 100 applications waiting for approval. Last month the 
President and Mrs. Bush presented the first four Preserve 
America Presidential awards for projects that spur heritage 
tourism and highlight notable privately funded preservation 
projects.
    The ACHP has been recast to more effectively accomplish and 
efficiently implement its mission in accordance with this 
executive order. We are leveraging our resources and building 
partnerships to promote the benefits of preservation across 
this Nation. The benefits are many: educational, cultural, 
environmental, social, and, importantly, economic, with the 
most immediate benefit being economic development opportunities 
available to communities, especially rural communities, through 
their participation in heritage tourism.
    Now, we all know that the Federal Government works best 
when it works in partnerships with States, counties, 
communities, tribes--in short, when it works in partnership 
with the constituents that you represent. Preserve America 
initiative promotes such activity and the executive order 
directs Federal agencies to actively engage in such 
partnerships.
    Our job is to encourage this process and program. We are 
building successful partnerships with Federal agencies and we 
will continue to build on those relationships to maximize our 
efficiency and effectiveness.
    Now, Mr. Chairman and committee members, I am a businessman 
and I would not be here if I did not believe that there is a 
clear return on this investment. My experience as chairman of 
the Texas Historical Commission tells me that this works. I 
have seen it work.
    We are before the committee today because your assistance 
is essential to allow us to realize this evolving role. Section 
106 is a very important and significant responsibility. 
However, we believe ACHP's mission is broader and we have 
adopted several proposed changes: First, amend the current 
time-limited authorization and replace it with permanent 
appropriations authorization. Next, authorize the President to 
add the heads of three additional Federal agencies to the ACHP 
membership. Third, authorize several technical amendments that 
would allow us to function more rationally and efficiently and 
provide us with the authority and direction to work 
cooperatively with Federal funding agencies to assist them in 
using their existing grant program to more effectively advance 
the purposes of the National Historic Preservation Act.
    With regard to that last change and based on the testimony 
you have already heard, I would like to request that the 
committee accept some minor revisions to the language of S. 
2469 as introduced. This clarifying language, which is appended 
to my written statement, will address a concern raised by the 
Department of Interior that you have heard, and they do concur 
with this amendment.
    I would also like to bring to the committee's attention the 
testimony the National Conference of State Historic 
Preservation Officers has prepared in support of this bill. The 
SHPO's, as you know, are our principal partners carrying out 
preservation activities at the State level. We value their 
support and appreciate their letter.
    I hope that the subcommittee will favorably consider our 
request. I thank you for the time and welcome any questions.
    [The prepared statement of Mr. Nau follows:]
 Statement of John L. Nau, III, Chairman, Advisory Council on Historic 
                        Preservation, on S. 2469
                           summary statement
    An independent Federal agency, the Advisory Council on Historic 
Preservation (ACHP) promotes historic preservation nationally by 
providing a forum for influencing Federal activities, programs, and 
policies that impact historic properties. In furtherance of this 
objective, the ACHP seeks reauthorization of its appropriations in 
accordance with the provisions of the National Historic Preservation 
Act of 1966, as amended (16 U.S.C. 470 et seq.) (NHPA). The ACHP also 
offers amendments to its authorities that we believe will strengthen 
our ability to meet our responsibilities under NHPA and provide 
leadership and coordination in the Federal historic preservation 
program.
                               background
    The ACHP was established by Title II of NHPA. NHPA charges the ACHP 
with advising the President and Congress on historic preservation 
matters and entrusts the ACHP with the unique mission of advancing 
historic preservation within the Federal Government and the National 
Historic Preservation Program. In FY 2002, the ACHP adopted the 
following mission statement:

        The Advisory Council on Historic Preservation promotes the 
        preservation, enhancement, and productive use of our Nation's 
        historic resources, and advises the President and Congress on 
        national historic preservation policy.

    The ACHP's authority and responsibilities are principally derived 
from NHPA. General duties of the ACHP are detailed in Section 202 (16 
U.S.C. 470j) and include:

  <bullet> Advising the President and Congress on matters relating to 
        historic preservation;
  <bullet> Encouraging public interest and participation in historic 
        preservation;
  <bullet> Recommending policy and tax studies as they affect historic 
        preservation;
  <bullet> Advising State and local governments on historic 
        preservation legislation;
  <bullet> Encouraging training and education in historic preservation;
  <bullet> Reviewing Federal policies and programs and recommending 
        improvements; and
  <bullet> Informing and educating others about the ACHP's activities.

    Under Section 106 of NHPA (16 U.S.C. 470f), the ACHP reviews 
Federal actions affecting historic properties to ensure that historic 
preservation needs are considered and balanced with Federal project 
requirements. It achieves this balance through the ``Section 106 review 
process,'' which applies whenever a Federal action has the potential to 
impact historic properties. As administered by the ACHP, the process 
guarantees that State and local governments, Indian tribes, businesses 
and organizations, and private citizens will have an effective 
opportunity to participate in Federal project planning when historic 
properties they value may be affected.
    Under Section 211 of NHPA (16 U.S.C. 470s), the ACHP is granted 
rulemaking authority for Section 106. The ACHP also has consultative 
and other responsibilities under Sections 101, 110, 111, 203, and 214 
of NHPA, and in accordance with the National Environmental Policy Act 
(42 U.S.C. 4321 et seq.) is considered an agency with ``special 
expertise'' to comment on environmental impacts involving historic 
properties and other cultural resources.
    The ACHP plays a pivotal role in the National Historic Preservation 
Program. Founded as a unique partnership among Federal, State, and 
local governments, Indian tribes, and the public to advance the 
preservation of America's heritage while recognizing contemporary 
needs, the program has matured and expanded over time. The Secretary of 
the Interior and the ACHP have distinct but complementary 
responsibilities for managing the National Historic Preservation 
Program. The Secretary, acting through the Director of the National 
Park Service, maintains the national inventory of historic properties, 
sets standards for historic preservation, administers financial 
assistance and programs for tribal, State, and local participation, and 
provides technical preservation assistance.
    The ACHP also plays a key role in shaping historic preservation 
policy and programs at the highest levels of the Administration. It 
coordinates the national program, assisting Federal agencies in meeting 
their preservation responsibilities. Through its administration of 
Section 106, the ACHP works with Federal agencies, States, tribes, 
local governments, applicants for Federal assistance, and other 
affected parties to ensure that their interests are considered in the 
process. It helps parties reach agreement on measures to avoid or 
resolve conflicts that may arise between development needs and 
preservation objectives, including mitigation of harmful impacts.
    The ACHP is uniquely suited to its task. As an independent agency, 
it brings together through its membership Federal agency heads, 
representatives of State and local governments, historic preservation 
leaders and experts, Native American representatives, and private 
citizens to shape national policies and programs dealing with historic 
preservation. The ACHP's diverse membership is reflected in its efforts 
to seek sensible, cost-effective ways to mesh preservation goals with 
other public needs. Unlike other Federal agencies or private 
preservation organizations, the ACHP incorporates a variety of 
interests and viewpoints in fulfilling its statutory duties, broadly 
reflecting the public interest. Recommended solutions are reached that 
reflect both the impacts on irreplaceable historic properties and the 
needs of today's society.
    New Directions. Since assuming the Chairmanship in August 2001, I 
have taken steps to ensure that the ACHP fulfills the leadership role 
envisioned for it in NHPA. In doing so, we have focused the ACHP on 
pursuing the broader policy goals of the National Historic Preservation 
Program.
    In creating the ACHP, Congress recognized the value of having an 
independent entity to provide advice, coordination, and oversight of 
NHPA's implementation by Federal agencies. The ACHP remains the only 
Federal entity created solely to address historic preservation issues, 
and helps to bridge differences in this area among Federal agencies, 
and between the Federal Government and States, Indian tribes, local 
governments, and citizens. While the administration of the historic 
preservation review process established by Section 106 of NHPA is very 
important and a significant ACHP responsibility, we believe that the 
ACHP's mission is broader than simply managing that process.
    NHPA established a national policy to ``foster conditions under 
which our modern society and our prehistoric and historic resources can 
exist in productive harmony and fulfill the social, economic, and other 
requirements of present and future generations.'' Among other things, 
the statute directed Federal agencies to foster conditions that help 
attain the national goal of historic preservation; to act as faithful 
stewards of federally owned, administered, or controlled historic 
resources for present and future generations; and to offer maximum 
encouragement and assistance to other public and private preservation 
efforts through a variety of means.
    To promote this policy and to exercise its intended leadership, the 
ACHP has taken the following steps:

  <bullet> Developed an Executive order to promote the benefits of 
        preservation, improve Federal stewardship of historic 
        properties, and foster recognition of such properties as 
        national assets to be used for economic, educational, and other 
        purposes. President Bush issued this as Executive Order 13287, 
        ``Preserve America,'' on March 3, 2003.
  <bullet> Created an initiative for the White House to stimulate 
        creative partnerships among all levels of government and the 
        private sector to preserve and actively use historic resources 
        to stimulate a better appreciation of America's history and 
        diversity. The initiative is known as ``Preserve America'' and 
        was announced by Mrs. Laura Bush on March 3, 2003.
  <bullet> Used ACHP member meetings to learn from local government and 
        citizens how the Federal Government can effectively participate 
        in local heritage tourism initiatives and promote these 
        strategies to Federal agencies and tourism professionals.
  <bullet> Undertook a major new initiative to improve the 
        participation of Native Americans in the National Historic 
        Preservation Program.

    The ACHP's 20 statutorily designated members address policy issues, 
direct program initiatives, and make recommendations regarding historic 
preservation to the President, Congress, and heads of other Federal 
agencies. ACHP members meet four times a year to conduct business, with 
two meetings in Washington, DC, and two in other communities where 
relevant preservation issues can be explored. However, the ACHP members 
and I are actively involved in ACHP business on a continual basis, 
particularly since January 2004 when the Administration's Preserve 
America initiative began to gain momentum.
    In 2002, we reorganized the ACHP membership and staff to expand the 
members' role and enhance work efficiencies as well as member-staff 
interaction. To best use the talents and energy of the ACHP members and 
ensure that they fully participate in advancing the ACHP's goals and 
programs, three member program committees were created: Federal Agency 
Programs; Preservation Initiatives; and Communications, Education, and 
Outreach.
    In addition, we created an Executive Committee comprised of myself, 
the ACHP vice chairman, and the chairman of each of the other 
committees to assist in the governance of the ACHP. Several times a 
year, we appoint panels of members to formulate comments on Section 106 
cases. Member task forces and committees are also formed to pursue 
specific tasks, such as policy development or regulatory reform 
oversight. On average, three such subgroups are at work at any given 
time during the year. Each meets about five to six times in the course 
of its existence, is served by one to three staff members, and produces 
reports, comments, and policy recommendations.
    The ACHP has a leading role in both the Preserve America Steering 
Committee and its operational subgroup. In coordination with the White 
House, the Preserve America Steering Committee sets policy and oversees 
the initiative. The operational subgroup works with State, regional, 
local, and private interests and across all involved Federal Agencies 
to coordinate the daily efforts involved with the Preserve America 
Community and Preserve America Presidential Award programs. The ACHP's 
Office of Federal Agency Programs works with each Federal agency's 
newly created Senior Policy Official, who focuses on Section 106 and 
Preserve America within his or her agency.
    We have further committed and tasked a staff member, under the 
direct supervision of the Executive Director, to coordinate our Native 
American Program. As part of that program, we held our first formal 
meeting of the Native American Advisory Group two weeks ago, from May 
26-27. The group seeks to improve relations and coordinate efforts with 
tribes and Tribal Historic Preservation Officers on issues of historic 
preservation, which are of particular and unique importance to tribes 
from both economic and cultural perspectives.
    The staff carries out the day-to-day work of the ACHP and provides 
all support services for the ACHP members. To reflect and support the 
work of the committees, the Executive Director reorganized the ACHP 
staff into three program offices to mirror the committee structure. 
Staff components are under the supervision of the Executive Director, 
who is based in the Washington, DC, office. There is also a small field 
office in Lakewood, Colorado.
     proposed amendments to the national historic preservation act
    Background to Reauthorization. The ACHP has traditionally had its 
appropriations authorized on a multi-year cycle in Title 11 of NHPA 
(Section 212, 16 U.S.C. 470t). The current cycle runs through FY 2005 
and authorizes $4 million annually. These funds are provided to support 
the programs and operations of the ACHP. Title II of NHPA also sets 
forth the general authorities and structure of the ACHP.
    The ACHP seeks to amend its appropriation authorization for two 
reasons. First, the authorization extends only through FY 2005 and must 
be renewed for FY 2006 and beyond. Of more immediate concern, however, 
is the relationship of the current authorization to our FY 2005 budget 
request now pending before Congress. For FY 2005, the President's 
budget seeks $4.6 million for the ACHP. Because this is over the 
authorization limit, the Executive Office of the President directed the 
ACHP to propose any legislation required to modify its authorization to 
be consistent with the President's budget.
    The ACHP is therefore seeking amendments to the authorizing 
legislation at this time. At its February 2003 and May 2003 member 
meetings, the ACHP endorsed an approach to the reauthorization issue. 
The approach addresses the immediate appropriations authority issue and 
also seeks amendments to the ACHP's composition and authorities to 
better enable the ACHP to achieve its mission goals.
    The bill S. 2469, to amend the National Historic Preservation Act 
to provide appropriation authorization and improve the operations of 
the Advisory Council on Historic Preservation, was introduced by the 
Honorable James M. Talent on May 20, 2004. A companion bill, H.R. 3223, 
is pending before the House Resources Committee.
    The changes proposed by the ACHP and contained in S. 2469 are 
explained in this overview.
    Appropriations Authorization. This provision (Section 1(f)) would 
amend the current time-limited authorization and replace it with a 
permanent appropriations authorization.
    When the ACHP was created in 1966, its functions were exclusively 
advisory and limited, and the agency was lodged administratively in the 
Department of the Interior. Since then, Congress has amended NHPA to 
establish the ACHP as an independent Federal agency and provide it with 
a range of program authorities crucial to the success of the National 
Historic Preservation Program.
    Not unlike the Commission of Fine Arts (CFA) and the National 
Capital Planning Commission (NCPC), the ACHP now functions as a small 
but important Federal agency, carrying out both advisory and 
substantive program duties. Specific language creating a permanent 
appropriations authorization would draw upon the similar statutory 
authorities of the CFA and NCPC. No ceiling to the annual 
appropriations authorization would be included in the authorizing 
legislation, but rather the appropriate funding limits would be 
established through the annual appropriations process.
    Expansion of Membership. This provision (Section 1(c)) would expand 
the membership of the ACHP by directing the President to designate the 
heads of three additional Federal agencies as members of the ACHP.
    The ACHP has been aggressively pursuing partnerships with Federal 
agencies in recent years and has found the results to be greatly 
beneficial to meeting both Federal agency historic preservation 
responsibilities and the ACHP's own mission goals. Experience has shown 
that these partnerships are fostered and enhanced by having the agency 
participate as a full-fledged member of the ACHP, giving it both a 
voice and a stake in the ACHP's actions. The amendment would bring the 
total number of Federal ACHP members to nine and expand the ACHP 
membership to 23-an administratively manageable number that preserves 
the current majority of non-Federal members. A technical amendment to 
adjust quorum requirements would also be included.
    Authority and Direction to Improve Coordination with Federal 
Funding Agencies. This provision (Section 1(g)) would give the ACHP the 
authority and direction to work cooperatively with Federal funding 
agencies to assist them in determining appropriate uses of their 
existing grants programs for advancing the purposes of NHPA.
    For example, it is our experience that programs such as the 
Historic Preservation Fund (HPF) administered through the States by the 
Department of the Interior have the flexibility to provide matching 
seed money to a local non-profit organization to support a heritage 
tourism program.
    The ACHP would work with agencies and grant recipients to examine 
the effectiveness of existing grant programs, evaluate the adequacy of 
funding levels, and help the agencies determine whether changes in the 
programs would better meet preservation and other needs. Any 
recommendations would be developed in close cooperation with the 
Federal funding agencies themselves, many of which sit as ACHP members, 
and with the States. The proposed amendment would also allow the ACHP 
to work cooperatively with Federal funding agencies in the 
administration of their grant programs.
    Please note that, after the original bill was drafted and 
introduced, the National Park Service recommended to the ACHP that the 
provision be slightly reworded to clarify the ACHP's authorities. We 
concur with those changes and have appended revised language for 
Section 1(g) to this statement.
    Technical Amendments. These provisions would provide four technical 
changes that would improve ACHP operations:
    1. Authorize the Governor, who is a presidentially appointed member 
of the ACHP, to designate a voting representative to participate in the 
ACHP activities in the Governor's absence. Currently this authority is 
extended to Federal agencies and other organizational members. The 
amendment would recognize that the personal participation of a Governor 
cannot always be assumed, much like that of a Cabinet secretary 
(Section 1(c)(2)).
    2. Authorize the ACHP to engage administrative support services 
from sources other than the Department of the Interior. The current law 
requires the ACHP's administrative services to be provided by the 
Department of the Interior on a reimbursable basis. The amendment would 
authorize the ACHP to obtain any or all of those services from other 
Federal agencies or the private sector. The amendment would further the 
goals of the FAIR Act and improve ACHP efficiency by allowing the ACHP 
to obtain necessary services on the most beneficial terms (Section 
1(d)).
    3. Clarify that the ACHP's donation authority (16 U.S.C. 470m(g)) 
includes the ability of the ACHP to actively solicit such donations 
(Section 1(e)).
    4. Adjust the quorum requirements to accommodate expanded ACHP 
membership (Section 1(c)(3)).
                               conclusion
    The ACHP has reached a level of maturity as an independent Federal 
agency and as a key partner in the National Historic Preservation 
Program to warrant continued support from Congress. As demonstrated by 
its recent program accomplishments-including the President's Executive 
Order 13287, the Preserve America initiative, and the Native American 
Program-the ACHP is a vital component of the Federal historic 
preservation program.
    We believe that the legislation we seek, coupled with periodic 
oversight by this Subcommittee and the annual review provided by the 
Appropriations Committees, is fully justified by our record of 
accomplishment. We hope that the Subcommittee will favorably consider 
this request, including our recommended technical amendments.
    We appreciate the Subcommittee's interest in these issues, and we 
thank you for your consideration and the opportunity to present our 
views.
                                 ______
                                 
                                APPENDIX
  revised provision relating to achp role in federal grant programs--
                            january 15, 2004
    (g) EFFECTIVENESS OF FEDERAL GRANT AND ASSISTANCE PROGRAMS IN 
MEETING THE PURPOSES AND POLICIES OF THE NATIONAL HISTORIC PRESERVATION 
ACT--Title II of the Act is amended by adding at the end the following 
new section:
    `SEC. 216. EFFECTIVENESS OF FEDERAL GRANT AND ASSISTANCE PROGRAMS.
    `(a) COOPERATIVE AGREEMENTS--The Council may enter into a 
cooperative agreement with any Federal agency that administers a grant 
or assistance program for the purpose of improving the effectiveness of 
the administration of such program in meeting the purposes and policies 
of this Act. Such cooperative agreements may include provisions that 
modify the selection criteria for a grant or assistance program to 
further the purposes of this Act or that allow the Council to 
participate in the selection of recipients, if such provisions are not 
inconsistent with the grant or assistance program's statutory 
authorization and purpose.
    `(b) REVIEW OF GRANT AND ASSISTANCE PROGRAMS--The Council may
    `(1) review the operation of any Federal grant or assistance 
program to evaluate the effectiveness of such program in meeting the 
purposes and policies of this Act;
    `(2) make recommendations to the head of any Federal agency that 
administers such program to further the consistency of the program with 
the purposes and policies of the Act and to improve its effectiveness 
in carrying out those purposes and policies; and
    `(3) make recommendations to the President and the Congress 
regarding the effectiveness of Federal grant and assistance programs in 
meeting the purposes and policies of this Act, including 
recommendations with regard to appropriate funding levels.'

    Senator Thomas. Thank you very much. We appreciate it.
    Let us see. I believe in our listing here Mrs. Krieger, Ms. 
Krieger.

         STATEMENT OF KAREN KRIEGER, HERITAGE RESOURCE 
  COORDINATOR, STATE OF UTAH DIVISION OF PARKS AND RECREATION

    Ms. Krieger. Thank you, Mr. Chairman and members of the 
subcommittee. I am here representing the State of Utah Division 
of Parks and Recreation to give testimony on S. 1678. In 1996 
the State of Utah began planning the new Utah Field House of 
Natural History State Park Museum in Vernal, Utah. The old 
Field House Museum was built in 1950 and has outdated, 
inefficient heating and cooling systems and electrical systems 
and very inadequate space for new collections. Many specimens 
have to be stored in old mechanical chase areas just below the 
building's ceilings. These areas are difficult to clean, 
impossible to maintain proper climate control, and have limited 
access due to their very low ceilings and overall cramped 
spaces. The museum's public spaces and exhibits were equally as 
outdated.
    As we planned for the museum, discussions with the staff at 
Dinosaur National Monument revealed that we share many needs in 
common: appropriate storage space for specimens, space for 
researchers, curation areas, and education areas for the 
general public. We quickly realized that by joining together we 
could enhance both of our projects and further both missions 
while reducing our individual projects' square foot 
requirements.
    A partnership was born and both agencies worked together to 
create building programs that could come together, provide a 
whole scientific and educational facility built by two separate 
agencies, one State, one Federal. As both agencies discussed 
our needs with the leaders of Vernal, Utah, and Uintah County, 
Utah, they recognized the benefits to their community of having 
state-of-the-art educational and scientific facilities in the 
heart of their region. They too joined the partnership.
    Uintah County purchased property and the four partners 
worked together to develop a site plan that would accommodate 
everybody's needs and expectations. As of May of this year, 
Vernal City expanded sidewalks, provided curb and gutter, 
street lighting, and extended the sewer lines to the property, 
and also provided funding for the educational components of the 
field house museum. The county, in addition to purchasing 
property, has built and paved the parking lot, and the State, 
as Senator Bennett described, has brought power, water, sewer, 
and data lines to the property and built a new museum, complete 
with classroom, theater, and 10,000 square feet of new exhibits 
that tell the story of the Uinta Mountain region's rich 
paleontological and fossil resources.
    The museum opened May 22, 2004, to the delight of over 
13,000 visitors. In our first week of operation we had over 
30,000 visitors.
    The part of the property adjoining the new museum to the 
east awaits our Federal partner's contribution to the 
partnership. When the partnership began, the State eliminated 
curatorial spaces, specimen storage areas, specimen study 
areas, processing areas, and the paleontological lab that is 
meant to be viewable and open to the public. These spaces were 
put into the National Park Service's building program, and we 
do have a map that we can submit for your review to see how the 
two facilities would join together.
    The State has built the elevator, we have put in the 
classroom, and we have located our staff offices at the point 
where the two buildings would join so that we could share 
office space, we could share the educational facility, we could 
share the elevator, and so that the paleontology lab would look 
right into our two-story volume lobby area, a very exciting 
area for visitors.
    These spaces were put into the Park Service's building 
program. Until the Uintah research and curatorial facility is 
built, we are left using the old, inadequate storage spaces, 
now three blocks away from our new museum, for our curatorial 
activities. In addition, we have stopped accepting new 
materials and are closed as a Federal repository.
    Demand for oil and gas leases on Federal lands in the Uinta 
Mountain region continually grows, spurring economic 
development in the rural communities of this region while 
generating more and more cultural and paleontological specimens 
for excavations required as part of the permitting process. 
Also a part of the process is the deposit of these specimens in 
Federal repositories that can care for them and make them 
available for study. As demands grow, area facilities are 
filling up and closing their doors to new collections.
    Keeping these specimens in the area from which they were 
excavated is of prime interest to all the partners. The ability 
to study them in close proximity to other associated resources 
really increases the value of the collection to scientists and 
to visitors alike. The State of Utah's public extrication 
programs in the new Utah Field House of Natural History State 
Park Museum are dependent on the collections and the knowledge 
those collections contain. The specimens and their stories 
inspire and direct the exhibits, public programs, and outreach 
activities the citizens of the region and those visiting the 
region expect and desire. The paleontological resources of this 
region are well known by researchers worldwide and yet are not 
fully studied because their current inaccessibility.
    Bringing together the collections of both Dinosaur National 
Monument and the Utah Field House in one, appropriately suited 
facility in their area of origin would create a popular and 
productive scientific center with immediate educational 
outlets. These collections are the documents of change, the 
fragmentary archive on which we base our knowledge of the 
natural world. Encoded within these collections is the past of 
our planet. Continued deciphering of that past by scientists 
working alongside our public program specialists is essential 
to the State's and the National Park Service's educational 
missions.
    In addition, our visitors demand and deserve current 
authentic information delivered in engaging ways. The field 
house provides a safe place for families to enjoy spending 
meaningful time together. It provides economic benefits to the 
Uintah Basin by generating valuable tourism dollars and offers 
a way to link science with the public. Without the ability to 
collect, properly care for, or to study the vast record of the 
Earth's history, so available in the Uinta Mountain region, our 
opportunities for providing these quality services will 
dramatically diminish.
    We cannot complete our mission without the collections and 
the information they hold and we cannot appropriately link the 
collections without the Uintah Research and Curatorial Center.
    Thank you again for the opportunity.
    Senator Thomas. Thank you very much.
    Mr. Hamre.

          STATEMENT OF DAVID HAMRE, AVALANCHE EXPERT, 
                  ALASKA RAILROAD CORPORATION

    Mr. Hamre. Mr. Chairman, members of the committee: Thank 
you for this opportunity to testify on behalf of S. 931. 
Natural hazards are prevalent throughout the United States, 
with hurricanes on the eastern seacoast and the Gulf Coast, 
tornadoes in the heartland, and earthquakes in California. 
Avalanches plague the Western States and Alaska.
    There has been a considerable amount of Federal expenditure 
which has improved our ability to forecast hurricanes, 
tornadoes, and earthquakes, but there has been no corresponding 
expenditures on avalanches, even though the majority of 
avalanche terrain lies on Federal land. The fatality rate 
continues to rise nationally. In the last 15 years it was worst 
in Colorado, followed closely by Alaska, Utah, Montana, 
Wyoming, Washington, and Idaho. But seven other States have 
also suffered losses, including New Hampshire with five deaths 
and Arizona with one.
    Most fatalities occur on Forest Service land, but 15 
fatalities in the last 15 years have occurred on national park 
lands as well.
    The avalanche fatality rate at this point in the United 
States is higher than in any other country. Existing programs 
include the forecast offices as identified by the Forest 
Service, but they also include site-specific risk mitigation 
programs that are run by Park Service, ski areas, highways, and 
railroads. No comprehensive analysis of needs has been 
conducted on a broad base to identify programs that might 
assist in reducing risk nationally.
    S. 931 would address this lack through the identification 
of problems and potential solutions and the coordination of 
efforts nationally. Available funds dispersed proportionate to 
the magnitude of avalanche problems in each State through the 
formula grant mechanism would help to identify and solve some 
of the problems that are occurring nationally.
    I have detailed in my written testimony some of the 
detailed examples of the problem areas around the country and 
how funding might help some of these problems. An example of 
this occurred last winter on Marias Pass in Montana, where 
avalanches occurred off national park lands on one side, 
wilderness study areas on the other side, onto U.S. Highway 2 
and also onto the Burlington Northern Railroad. There was a 
derailment of a train, knocked 15 cars off the tracks, spilled 
grain into the wild and scenic river area, and it was about an 
hour before that that an Amtrak train with 300 passengers on 
board had passed through that same area.
    The solutions to the problems in this particular case are 
fairly intractable and difficult because there are a lot of 
national value public lands in the area, wilderness lands and 
national park lands, that it is difficult to do risk mitigation 
on.
    The proposed bill also establishes a central depository for 
military artillery and to support the military artillery 
program in avalanche work. Currently the military artillery and 
for the past 50 years has been the backbone of avalanche 
control. There has been no good substitute developed which 
could take the place of military artillery in the short term. 
The bill would propose to set up some kind of a revolving fund 
which would forward base identification and procurement of 
assets, surplus assets out of the military that are suitable 
for long-range avalanche use. It could also be used to fund 
alternatives development to military artillery. In the case of 
the revolving fund, a grant might be set up to establish that 
fund and then the users could reimburse the costs of that 
grant.
    The loss of the 105 howitzer system nationally right now 
could very much affect our transportation corridors and lead to 
much longer closure times on transportation corridors 
throughout the country, such as U.S. 2 in Montana, I-90 in 
Washington with 22,000 cars a day, I-70 in Colorado with 15,000 
cars a day, Seward Highway in Alaska with 7,000 cars a day, and 
Utah 210 with 8,000 cars a day. I believe another example of 
that is the Teton Pass location in Wyoming that goes over the 
hill where a lot of the work force that drives to Jackson every 
day comes from Driggs, Idaho.
    This bill will help to create a comprehensive approach 
toward avalanche education and risk management and implement 
programs that safeguard the future of our existing mitigation 
efforts. So I would urge you to pass it.
    [The prepared statement of Mr. Hamre follows:]
      Statement of David Hamre, Avalanche Expert, Alaska Railroad 
                         Corporation, on S. 931
    Mr. Chairman and members of the committee, thank you for having me 
to testify on S. 931 today. I have prepared a condensed statement for 
the hearing today, but would like my entire statement entered into the 
record.
    Natural disasters are suffered throughout our country regularly. 
Hurricanes take their toll on the eastern seaboard. Tornadoes plague 
the heartland. California suffers from earthquakes. Most of the western 
states and Alaska suffer yearly from the consequences of snow 
avalanches. Much effort is put forward by the federal government to 
mitigate the effects of other natural events, but little is spent on 
avalanches. The majority of avalanche terrain in the U.S. lies either 
on National Forest or Park Service lands. With the current trends 
toward recreation in the mountains, and attendant increases in traffic 
on roads and in ski areas, the death toll from avalanches in the U.S. 
has surpassed that of any other country as of the latest recording 
period. With the current trend line in the rise of avalanche 
fatalities, sometime in the next 10-20 years they will surpass 
tornado's as the leading cause of natural hazards fatalities in the 
U.S. The bill before you proposes to address this rising toll in two 
ways.
    First, it establishes a system for distributing avalanche funding 
through a formula grant to avalanche specific projects in affected 
states. Projects in each affected state would receive a proportionate 
share to help solve the difficult problems that have been created by 
the public's desire to recreate on federal lands. A few examples of the 
problems needing comprehensive solutions:
    1. The encounter probability for avalanches hitting a vehicle on 
Utah highway #210, which feeds the ski areas of Alta and Snowbird as 
well as extensive land on the Wasatch National forest, is currently at 
85%. This means any natural avalanche occurring is almost certain to 
hit a vehicle. With the explosion of backcountry skier usage on the 
forest, the risk continues to rise. There is also great risk of a mass 
disaster when a first avalanche stops traffic on the road and is 
followed closely by a second avalanche onto the stopped traffic. 
Alternatives for risk reduction need to be analyzed and implemented 
before there is a large disaster.
    2. U.S. Highway #2 and the Burlington Northern Railroad through 
Glacier National Park in Montana have been drastically affected by 
avalanches in the past two years. They have suffered extensive 
shutdowns and business interruption with attendant losses estimated in 
the millions of dollars. This includes losses to grain farmers in North 
Dakota from untimely delivery of their product and diversion of Amtrak-
passenger trains. Implementation of risk reduction strategies could 
help reduce these lengthy closures as well as assist in earlier 
springtime openings of the nearby Going to the Sun highway through 
Glacier National Park to accommodate visitors.
    3. Increasing numbers of snowmobile riders have been involved in 
avalanche accidents in the west. With the advent of better technology 
in the machines, riders are able to access steep avalanche terrain with 
increasing frequency. There is a learning curve to understanding 
avalanche risks that this community has not embraced. Some dedicated 
educational effort such as classes or a video could produce a higher 
awareness and thus lower the death rate. There is presently no impetus 
for the private sector to provide these tools. States particularly hard 
hit by snowmachine deaths are Montana, Alaska, Wyoming, Utah, and 
Washington.
    4. The access road to the Alpine Meadows Ski Area in California, a 
county road, has a high traffic count combined with high avalanche 
probability. Lack of local zoning laws has resulted in numerous houses 
being built in the avalanche zones just below the road. This makes 
explosive control of avalanches problematic at best. An alternative 
would be to build structures in the starting zone to keep avalanches 
from beginning in the first place, except the starting zone is on 
Forest Service land in a declared wilderness. There is a strong 
recognition that eventually a major accident could occur here without 
some solution, but the stakeholders all believe that someone else needs 
to fix the problem. A small federal grant could be matched with funding 
from the various stakeholders to resolve this issue.
    The other mechanism used by S. 931 to assist the avalanche 
community is the provision for a central depository for artillery and 
supplies used for avalanche control. Since it's first use on national 
forest lands in 1947, military artillery has been the backbone of our 
defense of lives and property in ski areas, highways, and railroads 
throughout the country. In that 50 years, no comparable system has 
emerged that can take the place of military artillery. Users of 
artillery work closely with the U.S. Army, who is authorized to enter 
into agreements to provide the weapons systems. Over time the military 
has continued to move towards more sophisticated weapons that are more 
complex and difficult to use than is required for avalanche work. To 
date this hasn't been an issue because the avalanche program has been 
using surplus systems. The end of these systems is now very near, 
however. There are few remaining assets suitable for avalanche work, 
and these few assets are in poor shape. The attached pictures describe 
their condition well.
    The provision for a central depository, along with a corresponding 
grant, would allow us to establish a revolving fund that would acquire 
the remaining assets from the Army, refurbish them back to a usable 
condition, and keep them available for the avalanche community on a 
reimbursable basis. The corpus of the revolving fund would thus stay 
intact.
    A revolving fund grant might also allow for the research and 
development effort necessary to establish a suitable alternative to 
artillery. For the sake of protecting our transportation corridors such 
as I-90, U.S. 2, and others, reliance on a single system should be 
avoided in case a systemic problem develops with that system and it is 
condemned. Viable alternatives need to be developed in the next ten to 
20 years to military artillery. Given the wide range of stakeholders, 
it's difficult to raise the funding necessary to further this 
initiative. Users can ultimately pay for this work through back end 
reimbursement once a viable product is developed.
    One possible language change to the bill would be to allow the 
director of the program to divert a portion of the formula grant, such 
as up to 20% of the funding, to issues of broad national significance. 
This would allow all locations to benefit equally from programs aimed 
at reducing avalanche accidents such as the snowmobile example given.
    It's a credit to the efforts of the avalanche community in this 
country that developed recreations sites, highways and railroads faced 
with avalanche terrain have so few fatalities annually. Providing for 
some simple tools for the future can ensure this legacy continues, and 
can also help stop or reduce the growth of avalanche deaths from 
recreational use in the backcountry areas of our forests and parks.

    Senator Thomas. Very well. Thank you so much, all three of 
you, for being here. Just a couple of quick questions.
    Mr. Nau, is there any sort of criteria for what qualifies 
as a national historic site?
    Mr. Nau. Yes, sir, Mr. Chairman. That is within the 
Department of the Interior, administered by the National Park 
Service under the Secretary's standards. It is clearly 
outlined. Would you want me to go into that criteria?
    Senator Thomas. No. Historic sites are another thing. This 
is historic preservation. So are there criteria or is it--if my 
little town wants to do something for the main street, is that 
what we are doing? Or are we actually doing it on the basis of 
its historic value?
    Mr. Nau. What is important to your community or communities 
around the country I think in terms of creating historic 
preservation is being able to link those local resources of 
your community with the assets that are owned by the State, 
those assets that may be near your community that are owned by 
the Federal Government, both historic sites as well as cultural 
and natural sites, and have them become linked through a trails 
program that either is a natural trails program, such as the 
overland stage coach, or a trail that is put together, so that 
the story of the people, the sites themselves, and most 
importantly they can be linked for economic development for 
those communities that are integrated into this type of trails 
program.
    So I do not think there is a definition of a site so much, 
sir, as there is the ability to bring all of those assets that 
are linked culturally or historically together to make it a 
good visitor experience as the tourist comes in. Most of the 
local people, no matter what State or region they are in, they 
know what their history is. The idea of heritage and cultural 
tourism and the program that we think the Federal Government 
should be talking about helps just link those resources 
together.
    Senator Thomas. I see. Well, I am sure that what you say is 
true. On the other hand, there is a limit to how much the Park 
Service, for example--what are there, 389 parks or something 
now, plus other things? So there is a limit to that, and I 
think there has to be some determination, some separation, some 
classification of what logically is Federal and what is not.
    I know that is not an easy thing to do, but I am getting 
more and more concerned about the fact that you set up these 
programs and any time they want some economic activity, why, we 
call it something and get some Federal. And that really is not 
the basic purpose of it. So I understand what you are saying 
and appreciate it.
    Now, the funding. When you assist somewhere then, does the 
Park Service or someone take on a responsibility for continuing 
to fund that, or is it the original costs or both, or how does 
that work?
    Mr. Nau. Well, let me give my experience in Texas, where we 
put this type of program together to great success. We used no 
Federal money. As a matter of fact, it was less than $100,000 
of State funding to kick off this program.
    I think now I understand what your original question was. 
You do not need to continue to feed this type of program. The 
revenues that are generated from the tourists, the heritage 
tourists that will come into those communities, in many, many 
respects, Mr. Chairman, will generate the revenue to integrate 
the local resources and the Federal resources.
    It is a big, big number. Heritage tourists by the year 2005 
are going to be a $200 billion business in this country. In 
Texas, for every dollar the State has invested we have a 
documented $23 return. So it is a good business.
    The only program that we are pushing forward here is just 
to raise the level of awareness of the benefits of heritage 
tourism. There is very, very--as far as our bill is concerned, 
there is no new money to generate this program.
    Senator Thomas. Thank you very much.
    Senator Akaka.
    Senator Akaka. Mr. Nau, I want to congratulate you and 
commend you for what you are doing for the communities across 
the country. I particularly want to ask about solicitations and 
would like to follow up on the proposal to give the advisory 
council authority to solicit donations. Can you explain to me 
what it is that you cannot do now and why the advisory council 
needs authority to solicit donations?
    Mr. Nau. Certainly, Senator. Right now we can receive 
donations. Again, based on experience in Texas, going to what 
Senator Talent said on the courthouse program, when you create 
these partnerships and you begin to talk to the community or 
the State or private sector about the benefits, that they will 
accrue from creating heritage tourism programs. Many times you 
find people that want to step forward, be it corporations, 
individuals, or foundations, that are interested in helping 
their community or their courthouse or their program, and you 
are in an embarrassing situation where you are sitting at the 
table talking about the program, they want to be able to 
provide some resource to you, either time or money, and you 
cannot solicit it.
    It is a fine line between accepting and soliciting when you 
are sitting there and promoting and selling a program. I would 
not want to be in the position of being accused of soliciting 
when I am selling it and somebody wants to give it to me. That 
is the reason for it. I would certainly not want to get out and 
get in competition with the National Trust or any, Historic 
Hawaii or anyone like that. It is more being able to accept 
what I am selling.
    Senator Thomas. Senator Talent, do you have any questions?
    Senator Talent. Just briefly, Mr. Chairman.
    As I understand it, the idea here is to--we are not 
changing the standards for what is designated as an historic 
site or anything like that.
    Mr. Nau. No.
    Senator Talent. And the idea is instead, if a community--
and this is very common in Missouri--has for example Civil War 
battlefields, cemeteries that are already of historic 
significance, and so if the council, either in connection with 
an application to be designated an historic site or otherwise, 
helps the tourism department and local authorities in linking 
up, providing services to prospective tourists, so that they 
may want to plan a trip and visit the battlefield, visit the 
cemetery, visit the courthouse, and this of course helps 
generate the kind of revenue that we then need to maintain 
these historic sites, and the council helps facilitate that; is 
that really what you are talking about?
    Mr. Nau. That is correct. There are 26 States that have 
some form of heritage tourism program, which means there are 24 
that do not. Our job here is to simply point out the benefits. 
As you explained, Senator, taking St. Louis, if there would be 
a way to move just 10 percent of the people that go through 
that national park arch and take them out 20 or 30 miles to St. 
Charles or other historic sites, that is what the purpose of 
this is.
    It is not to add any more inventory. It is to point out the 
assets and integrate them into programs, so that the rural 
communities, where the biggest opportunity is, have the biggest 
benefit.
    Senator Talent. I really want to congratulate you on that, 
because, as is often the case, there has been a lot of work 
being done in this area, both by various Federal agencies, 
local foundations, State governments, and yet they are often 
not working together and so we lose a lot of the benefits, both 
in terms of the history of local communities and also in terms 
of tourism. The two are linked, as you pointed out, because if 
it is sustainable from a tourism standpoint then it really 
helps in maintaining these buildings.
    So you made the council really--I think this is what it was 
designed to do, as a kind of facilitator, mediator, agency that 
puts partnerships together, and you are already doing that; 
that is correct, is it not?
    Mr. Nau. Yes, sir. Thank you.
    Senator Talent. I thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Well, thanks to all of you for coming and we appreciate it 
and we will look forward to working with these bills and see if 
we can move them forward. Thank you so much. There may be other 
questions in the next few days. If there are, I hope you will 
respond.
    The committee is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                     Washington, DC, July 29, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on June 8, 
2004, on S. 931, S. 1678, S. 2140, and S. 2237. These responses have 
been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                     Questions From Senator Thomas
    s. 931, federal land recreational visitor protection act of 2003
    Question 1a. According to S. 431, ``the Secretary shall apportion 
the amount of funds made available for the fiscal year among States 
with avalanche zones based on the ratio that the total area of 
avalanche zones located in each State bears to the total area of all 
avalanche zones in all States.'' Could you explain ``avalanche zones'' 
and the breakdown by state of the area occupied by avalanche zones?
    Answer. ``Avalanche zones'' can best be defined as treeless areas 
between 30-45 degrees that include open slopes, gullies and bowls. 
There currently is no nationwide inventory of ``avalanche zones'' To 
gather this information will be problematic. The number of avalanche 
zones as defined might be roughly calculated using Geographic 
Information Systems or a similar technology but that work has not been 
completed on a state-by-state basis.
    The term avalanche zone, in the context of the bill, appears to be 
independent of the avalanche hazard, or risk to the public. A more 
robust measure of the avalanche potential of each state would also 
include the number of people exposed to avalanches by these ``avalanche 
zones'' or to factor in the number of fatalities by state. Another 
alternative would be to allow the advisory committee to establish 
criteria or priorities to direct funding where it is most needed and 
will be used most efficiently.
    Question 1b. How much of the area occupied by avalanche zones is on 
National Park Service land and how much is on Forest Service land?
    Answer. Since a mapping of avalanche zones has not occurred on a 
national basis, there are no figures to determine how many acres are on 
National Forest System lands versus National Park lands. There are 
countless avalanche zones on NPS lands and FS lands. At issue is how 
many of those zones pose a threat to visitors, and transportation 
corridors.
    Question 1c. How much could each state expect to get if the annual 
appropriation is $10 million?
    Answer. It is difficult for the NPS to calculate the split among 
states; however because of the sire, the amount of Federal lands, and 
the topography of Alaska, and using the definition of an ``Avalanche 
Zone'', Alaska would likely receive the majority of funding. However if 
statistics on the number of fatalities per state were to be used, 
Colorado would likely receive the most funding with Alaska close 
behind.
    Question 2. What is DOI'S role in the existing avalanche monitoring 
program and what is the department's annual operating budget for the 
program?
    Answer. Of the agencies within DOI, we believe NPS has the greatest 
involvement, providing limited funding of approximately $27,000 to the 
national avalanche program and raw data to the Forest Service's 
National Avalanche Center such as snow depth, wind direction etc. In 
addition, the NPS expends operational dollars in the following parks to 
maintain/monitor and protect the visitor and employee from the threat 
of avalanches.
    YELLOWSTONE NATIONAL PARK--The Road Crew provides mitigation/
control work to several of the winter passes. These services are built 
into their core program.
    GLACIER NATIONAL PARK--The Road Crew provides mitigation/control 
work to the winter opening of the Going to the Sun Road.
    YOSEMITE NATIONAL PARK--During spring road opening of the Tioga 
Pass, Yosemite National Park maintains a staff of two Avalanche 
Forecasters, who provide training, site monitoring and mitigation/
control work that supports the road crew--The park expends 
approximately $30,000 annually for the monitoring and mitigation work.
    MT RAINIER/OLYMPIC AND NORTH CASCADES NATIONAL PARKS--These three 
parks collectively contribute $27,000 annually to the Pacific Northwest 
Avalanche Center. In return the Avalanche Center provides the park with 
winter and spring forecasting and training services (limited to 
awareness courses).
    Several other parks have absorbed the cost of avalanche forecasting 
and limited control work into their base-operating budget.
           s. 1678, uintah research and curatorial center act
    Question 3. How are artifacts from Dinosaur National Monument 
currently stored?
    Answer. The collections are currently stored in 11 different 
facilities throughout the park, including at the Quarry Visitor Center, 
in sheds, in garages, in the basement of the park headquarters 
building, and numerous other locations. Of the 957 museum standards 
currently applicable to the park, the park meets approximately 50% of 
them.
    Question 4. The following questions pertain to funding for 
construction and operation of a curatorial facility for Dinosaur 
National Monument:
    Question 4a. Approximately how much will it cost to build the 
curatorial facility?
    Answer. In FY07 dollars, $8.8 million for 22,500 square feet.
    Question 4b. What is the anticipated annual operating expenses?
    Answer. $300,000 per year.
    Question 4c. How many employees will be required to run and support 
the facility (researchers, security, maintenance, etc.)?
    Answer. A minimum of 5 permanent employees will be required to 
operate and maintain the Uintah Research and Curatorial Center. 
Dinosaur National Monument will move 3 existing permanent employees to 
the building (Curator, Paleontologist, and Geologist). In addition to 
these 3 employees, a minimum of 2 other permanent employees will be 
needed to operate the Uintah Research and Curatorial Center, including 
an Administrative ``technician and a Maintenance Mechanic.
    Question 4d. Will the entire staff consist of government employees 
or would the NPS outsource any positions at the facility?
    Answer. Several options exist regarding the 2 additional positions 
that are needed to operate and maintain the Uintah Research and 
Curatorial Center. Federal employees could fill these two positions, 
State of Utah employees could fill them, or the work could be 
contracted.
       s. 2140, expanding and making mount rainier national park 
                          more accessible act
    Question 5. How much has the National Park Service spent in the 
past 10 years to repair and maintain the portion of road affected by S. 
2140? How much do you estimate the National Pail. Service would spend 
during the next 5 to 10 years if S. 2140 is not enacted?
    Answer. The National Park Service has spent about $785,000 during 
the last 10 years to repair the portion of the Carbon River Road that 
frequently washes out. Of that amount, $750,000 was spent on the major 
1998 repair that lasted only one month because the road was again 
damaged by a flood.
    While we cannot predict how much damage will occur to the road 
during the next five to ten years, on the basis of recent weather 
patterns and the erosion of natural barriers between the river and the 
road, we anticipate spending about $175,000 to $230,000 during that 
period if a decision was made to keep the road open to vehicular 
traffic for access to the existing Ipsut Creek campground. Current 
repairs needed to open the road for two-way traffic would cost about 
$125,000. Annual repairs would be about $5,000 and, every fifth year, 
about $35,000. That would bring the total to $175,000 for five years 
and $230,000 for ten years.
    Question 6. How will the number of campsites and picnic sites he 
affected by S. 2140?
    Answer. Currently, there are 29 campsites and a picnic area at the 
Ipsut Creek Campground. Eventually, unless a decision is made to 
continue repairing the Carbon River Road, these facilities will not be 
accessible by automobile. They are already inaccessible by vehicle when 
the road floods. The park plans to continue to operate the campground 
for visitors who hike or ride bicycles to the site.
    If S. 2140 is enacted, and if funds are made available for the 
National Park Service to acquire the new area added to the park by the 
legislation, plans call for development of 50 auto-accessible campsites 
and three picnic areas.
    Question 7. How much do you expect the acquisition and construction 
to cost? Do you expect to use any transportation funds to complete the 
road portion of the project?
    Answer. We estimate that acquiring the land will cost about $3 
million to $6 million and developing it for visitor and administrative 
use, about $4.8 million. In the future, we expect only minor repairs to 
be made to the portion of the Carbon River Road that leads to the Ipsut 
Creek Campground, just enough to provide substandard access. It is 
likely that the funding for those repairs would come from in-park funds 
redirected from other park operations or the NPS repair and 
rehabilitation budget.
      s. 2287, jean lafitte national historical park and preserve 
                    boundary adjustment act of 2004
    Question 8. A portion of the land being acquired by the National 
Park Service is currently administered by the Army Corps of Engineers. 
Will the Corps continue to have any need for access or be involved in 
any way with future management and use of the land'?
    Answer. It is our understanding, based on conversations with the 
Corps that, once the transfer takes place, they would have no further 
need for access or to be involved in management of the property.
    Question 9. What is the anticipated cost to complete the proposed 
land acquisition?
    Answer. There would be no costs associated with the acquisition of 
the federal lands. Of the 521 acres of private land added to the 
boundary, about 250 acres would have no additional costs because they 
are already owned by the National Park Service. Another 485 acres of 
wetlands would cost an estimated $170,000. The remaining 86 acres that 
are not wetlands have not been appraised and NPS does not anticipate 
acquiring these lands at this tune. However, in the past NPS has paid 
between $10,000 and $80,000 per acre for comparable land within the 
boundary. These lands are expected to be at the lower end of that range 
and if a figure of $25,000 per acre is used the total cost for the 
entire 86 acres would be $2.1 million.
    Question 10. Has the National Park Service surveyed the land for 
possible hazardous waste?
    Answer. Yes, a Level I hazardous waste assessment has been 
completed. No hazardous materials were found.
   s. 2469, national historic preservation act amendments act of 2004
    Question 11. Will S. 2469 allow the Advisory Council to streamline 
the process for section 106 consultation or reduce the time required to 
complete the consultation process?
    Answer. This bill does not directly amend section 106 of the 
National Historic Preservation Act. Recent revisions to 36 CFR 800 have 
addressed streamlining the consultation process under section 106 and 
reduce the time required. This bill seeks to improve Council 
administration and operational efficiency and to ensure the Council 
better serves Federal agencies and the Council's stated purposes apart 
from the Section 106 process.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                      March 3, 2004
Hon. Maria Cantwell,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Cantwell: As business and community leaders from the 
Mount Rainier National Park region, we recognize the significant role 
that the national parks play in our local economies. We appreciate your 
dedication and support for this park's protection and proper funding. 
We particularly support your efforts to improve and expand Mount 
Rainier National Park through such actions as the 800-acre Carbon River 
Valley boundary expansion, addressing the park's maintenance backlog, 
and fully funding the park's day-to-day operations.
    Healthy and vibrant national parks are good for business. 
Washington state's national parks are prime examples of how 
conservation can enhance the economies of surrounding communities. 
According to an economic model developed by researchers at Michigan 
State University, more than 7 million visitors to ten Washington 
national park sites in 2001 spent a total of $204,500,000. This 
supported 5,362 jobs and generated more than $87 million worth of 
wages, salaries, and payroll benefits. Mount Rainier National Park 
alone generated roughly $30 million in total visitor spending and 776 
jobs. In local restaurants and bars, Mount Rainier visitors generated 
$6.75 million in sales. Visitor spending at lodging facilities produced 
another $5.5 million.
    As Mount Rainier National Park enters its second century of 
existence, it is more important than ever that Congress invest in the 
park's maintenance, protection, and operations. Investing in our 
national parks returns even greater benefits for our local communities 
and economies.
    Thank you for your continued support for national park protection 
and funding.
            Sincerely,
John W. Ladenburg,
  Executive,
  Pierce County, WA.
Ruthie Reinert,
  Executive Director,
  Tacoma Regional Convention &
    Visitors Bureau.
Steve Leahy,
  President and CEO,
  Gr. Seattle Chamber of Commerce.
Cathy Riggs,
  Executive Director,
  Enumclaw Chamber of Commerce.
David Greybill,
  President and CEO,
  Tacoma-Pierce Chamber of Commerce.
Mark Bauer,
  Administrator,
  City of Enumclaw, WA.
Allan Zulauf,
  Chairman,
  Puyallup Watershed Council.
Steve Miller,
  President,
  Mount Rainier Business Association.
Nancy Neyenhouse,
  Conservation Chair,
  The Mountaineers.
Jeremy Foust,
  Manager,
  Summit Haus.
Denis Madsen,
  President and CEO,
  Recreational Equipment Inc.
Joan Miller,
  President,
  Wilkinson Historical Society.
Peter Whittaker,
  Owner,
  Rainier Mountaineering Inc./
    Summit Haus.
Kevin McCarty,
General Manager,
  White Pass Ski Area.
Lou Whittaker,
  Owner,
  Rainier Mountaineering Inc.
John Keates,
  Parks & Recreation Director,
  City of Enumclaw, WA.
                                 ______
                                 
       Statement of Heather Weiner, Director, Northwest Region, 
          National Parks Conservation Association, on S. 2140
    Chairman Thomas, Ranking Member Akaka, Senator Cantwell and other 
honorable members of the committee, thank you for the opportunity to 
provide testimony in support of S. 2140, to extend the boundary of Mt. 
Rainier National Park. I am the Director of the Northwest Region of the 
National Parks Conservation Association (NPCA), which is the only 
national, nonprofit conservation organization that advocates 
exclusively for the national parks. Through public education, advocacy, 
and citizen outreach, NPCA works to protect, preserve, and enhance 
America's National Park System for present and future generations. 
Established in 1919 by a former park superintendent, today we have more 
than 12,000 members in Washington and Oregon, and more than 300,000 
members nationwide.
    The Mount Rainier Boundary Adjustment Act, S. 2140, will add 
approximately 800 acres of the Carbon River valley to this century-old 
national park. A large coalition of business owners, chambers of 
commerce, local governments, and gateway community members join NPCA in 
supporting Senator Cantwell's bill. A letter from these community 
members is included with this testimony.
    Congresswoman Jennifer Dunn, along with most of the Washington 
delegation, introduced a companion bill, H.R. 265 and this bill passed 
the House on June 1, 2004.
    We support S. 2140 for many reasons. Primarily, the boundary 
extension will save taxpayer dollars by preventing the need for road 
repairs after seasonal washouts along the Carbon River. (The last major 
washout was in February 2003). S. 2140 will conserve one of 
Washington's last inland rainforests, with tumbling rivers, reflective 
lakes, and stunning views. It will also protect Mount Rainier's 
foothills from encroaching development, salmon habitat loss, and 
further strain on its natural resources. By improving visitor access 
and campgrounds in the under-utilized northwest section of Mount 
Rainier National Park, this bill is good for business, and good for 
Washington State.
    Mt. Rainier National Park hosts some 1.3 million recreational 
visits annually. These visitors spent $29.34 million in 2001, 
supporting some 776 jobs in the communities outside the park. Senator 
Cantwell's bill will help increase those dollars and jobs by increasing 
economic opportunities in near-by gateway communities such as Enumclaw, 
Wilkeson, Burnett, South Prairie, Carbonado, and Puyallup.
    NPCA believes the best way to improve Mount Rainier National Park 
is to protect its foothills and to provide visitors with improved 
access to all park entrances. The 236,000-acre National Park is quickly 
becoming a biological island surrounded on the west by suburban 
development. The park's proximity to Seattle, Tacoma and Portland 
invites more than 1 million visitors annually, most arriving in June, 
July, and August. Traffic jams, air pollution from idling cars, and 
frustrated visitors clog the Nisqually entrance to the park; in fact, 
almost half of all park visitors (46%) use the Nisqually entrance. Mt. 
Rainier National Park, after a 5-year public planning process, 
recommended improving visitor access through the Carbon River entrance 
to the park by extending the boundary.
    Unfortunately, time is running out for the Carbon River Valley. The 
willing land sellers (Thompsons, Marshes and Plum Creek) have received 
other offers to buy, and develop, the valley. Although the two 
families, and Plum Creek, want their properties to become part of this 
icon park, they all face strong pressures to sell to resort and housing 
developers.
    On behalf of our coalition of businesses, chambers of commerce, 
local governments and community leaders, NPCA thanks you for 
considering this bill and urges the U.S. Senate to approve this bill.
                                 ______
                                 
    Statement of Coalition to Restore Coastal Louisiana, on S. 2287
    My name is Mark Davis. I am the executive director of CRCL, which 
has its offices in Baton Rouge, Louisiana. On behalf of the Coalition 
to Restore Coastal Louisiana (CRCL) I would like to thank Senator Mary 
Landrieu for authoring this important bill and I would also like to 
thank Subcommittee Chairman Thomas and the other members of the 
subcommittee for this opportunity to present testimony in strong 
support of S. 2287. CRCL is a non-profit, non-partisan education and 
advocacy organization was formed in the mid 1980s by conservationists, 
local governments, business, environmentalists, civic and religious 
organizations who shared a concern about the fate of the greatest 
coastal wetland and estuarine complex in the 48 contiguous United 
States and commitment to the responsible stewardship of those natural 
treasures.
    On a personal note, I am also one of the many people who enjoy the 
beauty and educational opportunities of the park. There simply is not 
another place like this where the history and natural heritage of the 
great Mississippi River delta are so accessible and visible. It is a 
true treasure that enriches us all.
    The bill before you today provides an opportunity to expand that 
treasure, the Barataria unit of Jean Lafitte National Historical Park 
and Preserve. Located about one half hour from downtown New Orleans, 
the preserve provides a window for exploration of America's most 
productive and threatened wetland ecosystem--the vast coastal and 
estuarine marshes and swamps of the Mississippi River delta. No other 
national park protects and interprets a representative sample of 
coastal Louisiana The location of the Barataria unit is convenient not 
only to the citizens of New Orleans and southeast Louisiana, but also 
to the millions of American and foreign tourists who visit New Orleans 
and south Louisiana. This is the one place where they can get a glimpse 
of this great resource by walking a system of park service trails and 
boardwalks, canoeing along quiet bayous, and being guided by a ranger 
through the park's interpretive programs.
    This bill makes possible something that is all too rare--the 
expansion of a national treasure at no cost and with no impact on 
unwilling private property owners.
    The bill transfers to the park land already in Federal ownership, 
already paid for by the American taxpayer. This is as it should be. 
Having paid dearly for the purchase of these wetlands, the American 
people have a right to gain access to these lands, and to see them 
managed by the National Park Service for the public good. These lands 
came into Federal ownership as a result of the settlement of two 
lawsuits brought by landowners against the United States. The issues 
adjudicated in those lawsuits: the desire of property owners to profit 
from the development of wetlands; the desire of the public to see those 
wetlands protected for their greater societal values; and the optimal 
location of federally sponsored hurricane protection levees to separate 
development from the dangers of flooding, are all important issues. 
These issues go to the heart of our struggle as a nation to balance 
competing interests when it comes to protecting wetlands and people at 
risk-at risk because they live in wetlands near the coast. In this 
case, those issues were settled when the lawsuit was settled. The 
hurricane levee excluded these wetlands, the property owners have 
received compensation, and its time now to add these properties to the 
park. Doing so will open them to visitation by the public for a 
multitude of purposes, including hunting, fishing, canoeing, viewing 
wildlife, and interpretation.
    Transferring these properties to NPS management will also enhance 
opportunities for partnerships between the park and Jefferson Parish. 
The location of the Barataria unit literally right next to the 
hurricane levee and the subdivisions it protects provides unique 
challenges and unprecedented opportunities. The park is working with 
the parish to find creative solutions for problems faced in every 
urban-wetland interface: storm-water run-off, sewage discharge, wetland 
restoration, and other issues. By having more of that interface between 
the levee and development in park management, there will be fewer 
landowners to satisfy as solutions are devised. Devising solutions for 
these issues is critical to the future health of our estuaries, and the 
parish and the park are committed to working together to find those 
solutions.
    The levee corridor that separates much of the park from developed 
areas has already been identified by local elected officials and the 
Corps of Engineers as a potential recreational greenspace and trail 
corridor, linking communities together and to the park beyond. Adding 
these properties enhances the ability of the park and the West 
Jefferson Levee District to work cooperatively towards this goal, 
without the potential impediment of intervening non-NPS properties.
    The new boundary proposed in this bill includes within it several 
tracts of private property. These properties were either excluded from 
the original lawsuits on technical grounds, or are non-wetlands, or 
are, in a few cases, portions of wetland tracts that overlap the 
existing boundary line, leaving small parcels and a difficult to manage 
boundary. The interests of these owners are protected by the 
legislation as written. Those that desire to sell may do so if Congress 
appropriates the funds from Land and Water Conservation Fund at some 
future date and if a price can be mutually agreed upon. Those that 
desire to maintain their ownership are free to do so.
    State property to be included within the new boundary, the Highway 
3134 right-of-way or the levee rights-of-way, will continue in state 
ownership and management. Including it within the boundary enhances 
opportunities for cooperative management, law enforcement and boundary 
patrol.
    In closing, let me just say that the expansion of the Jean Lafitte 
National Historical Park and Preserve will be as one of the great gifts 
of our generation to the generations that follow We enthusiastically 
support the expansion of the park as called for in this bill.
                                 ______
                                 
  Statement of Edward F. Sanderson, President, National Conference of 
            State Historic Preservation Officers, on S. 2469
    The National Conference of State Historic Preservation Officers 
supports S. 2469 amending Title 11 of the National Historic 
Preservation Act improving the operation of the Advisory Council on 
Historic Preservation (ACHP).
                              introduction
    The National Conference has a direct interest in the ACHP for two 
reasons.
    1. The National Conference is, by statute, a voting member of the 
ACHP.
    2. The members of the National Conference-the State Historic 
Preservation Officers carry out 98% of the work involved in complying 
with the ACHP's regulations implementing Section 106 of the National 
Historic Preservation Act (36 CFR Part 800).
    The vitality of the ACHP is directly related to the daily work of 
the State Historic Preservation Officers.
                           council membership
    Under President Bush, historic preservation has received an 
unprecedentedly high level of attention in the federal government. As 
the President's appointee as Chairman, John L. Nau, III, has 
aggressively implemented the Administration's policy. One outcome is 
the growing interest among federal agencies to participate in historic 
preservation activities and to be voting members of the ACHP. Adding 
more federal agencies to the Council will benefit both the conservation 
of America's heritage and communication among agencies concerning the 
balance of historic preservation values and agency development 
projects.
    Increasing the quorum from nine members to eleven is a logical 
accompaniment to the increase in membership.
                           financial services
    The Council is a small agency with a limited budget. It needs to be 
able to find the most effective means to handle administrative 
services. This Section will allow the Council to identify a cost 
effective deliverer of these services.
                           donation authority
    The additions to the Council's donation authority language should 
make it easier for the private sector Council Members to solicit 
donations for important historic preservation activity.
                      appropriation authorization
    The Council has proved its worth over the past four decades. 
Elimination of the necessity for reauthorization and of a budget 
ceiling is appropriate.
                historic preservation fund authorization
    In closing, I would also like to bring to the Committee's attention 
that the authorization for deposits from the proceeds of off shore oil 
lease revenues into the Historic Preservation Fund (16 U.S.C. 470h) 
expires at the end of FY 2005. I am pleased to note that Rep. Hefley 
has introduced H.R. 4443 in the House, which will extend the 
authorization through 2010. The National Conference is working on the 
introduction of a companion bill in the Senate and hopes the Committee 
will support reauthorization through 2010.

                                    

      

</pre></body></html>
